<html>
<title> - 10 YEARS OF WAR: EXAMINING THE ONGOING CONFLICT IN SYRIA</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]




 
        10 YEARS OF WAR: EXAMINING THE ONGOING CONFLICT IN SYRIA

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
         MIDDLE EAST, NORTH AFRICA, AND GLOBAL COUNTERTERRORISM

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 15, 2021

                               __________

                           Serial No. 117-29

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 
                       or http://www.govinfo.gov
                       
                       
                           ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
44-669 PDF            WASHINGTON : 2021                        
                       
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                  GREGORY W. MEEKS, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
ALBIO SIRES, New Jersey                  Member
GERALD E. CONNOLLY, Virginia         CHRISTOPHER H. SMITH, New Jersey
THEODORE E. DEUTCH, Florida          STEVE CHABOT, Ohio
KAREN BASS, California               SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts       DARRELL ISSA, California
DAVID CICILLINE, Rhode Island        ADAM KINZINGER, Illinois
AMI BERA, California                 LEE ZELDIN, New York
JOAQUIN CASTRO, Texas                ANN WAGNER, Missouri
DINA TITUS, Nevada                   BRIAN MAST, Florida
TED LIEU, California                 BRIAN FITZPATRICK, Pennsylvania
SUSAN WILD, Pennsylvania             KEN BUCK, Colorado
DEAN PHILLIPS, Minnesota             TIM BURCHETT, Tennessee
ILHAN OMAR, Minnesota                MARK GREEN, Tennessee
COLIN ALLRED, Texas                  ANDY BARR, Kentucky
ANDY LEVIN, Michigan                 GREG STEUBE, Florida
ABIGAIL SPANBERGER, Virginia         DAN MEUSER, Pennsylvania
CHRISSY HOULAHAN, Pennsylvania       AUGUST PFLUGER, Texas
TOM MALINOWSKI, New Jersey           PETER MEIJER, Michigan
ANDY KIM, New Jersey                 NICOLE MALLIOTAKIS, New York
SARA JACOBS, California              RONNY JACKSON, Texas
KATHY MANNING, North Carolina        YOUNG KIM, California
JIM COSTA, California                MARIA ELVIRA SALAZAR, Florida
JUAN VARGAS, California              JOE WILSON, South Carolina
VICENTE GONZALEZ, Texas              RON WRIGHT, Texas
BRAD SCHNEIDER, Illinois

                                    
                                     
                                     
                                     

                    Jason Steinbaum, Staff Director

               Brendan Shields, Republican Staff Director
                                 ------                                

 Subcommittee on Middle East, North Africa, and Global Counterterrorism

                 THEODORE E. DEUTCH, Florida, Chairman

GERALD E. CONNOLLY, Virginia         JOE WILSON, South Carolina, 
DAVID CICILLINE, Rhode Island            Ranking Member
TED LIEU, California                 SCOTT PERRY, Pennsylvania
COLIN ALLRED, Texas                  ADAM KINZINGER, Illinois
TOM MALINOWSKI, New Jersey           LEE ZELDIN, New York
KATHY MANNING, North Carolina        BRIAN MAST, Florida
WILLIAM KEATING, Massachusetts       TIM BURCHETT, Tennessee
BRAD SHERMAN, California             GREG STEUBE, Florida
JUAN VARGAS, California              RONNY JACKSON, Texas
BRAD SCHNEIDER, Illinois             MARIA ELVIRA SALAZAR, Florida

  
                                     
                      Casey Kustin, Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Khatib, Dr. Lina, Director, Middle East and North Africa 
  Programme, Chatham House.......................................     7
Alshogre, Mr. Omar, Syrian Public Speaker and Human Rights 
  Activist, Director of Detainee Affairs, Syrian Emergency Task 
  Force..........................................................    17
Cafarella, Ms. Jennifer, National Security Fellow, Institute for 
  the Study of War...............................................    27

                                APPENDIX

Hearing Notice...................................................    80
Hearing Minutes..................................................    81
Hearing Attendance...............................................    82

         STATEMENT FOR THE RECORD FROM REPRESENTATIVE CONNOLLY

Statement for the record from Representative Connolly............    83


        10 YEARS OF WAR: EXAMINING THE ONGOING CONFLICT IN SYRIA

                        Thursday, April 15, 2021

                          House of Representatives,
             Subcommittee on the Middle East, North
               Africa, and Global Counterterrorism,
                      Committee on Foreign Affairs,
                                                    Washington, DC.

    The committee met, pursuant to notice, at 10:09 a.m., via 
Webex, Hon. Theodore E. Deutch (chair of the subcommittee) 
presiding.
    Mr. Deutch. All right, the Subcommittee on the Middle East, 
North Africa and Global Counterterrorism will come to order. 
Without objection, the chair is authorized to declare a recess 
of the subcommittee at any point, and all members will have 5 
days to submit statements, extraneous material, and questions 
for the record subject to the length limitation in the rules.
    As a reminder to the members, please keep your video 
function on at all times, even when you are not recognized by 
the chair. Members are responsible for muting and unmuting 
themselves, and please remember to mute yourself after you 
finish speaking. Consistent with House Resolution 8 and the 
accompanying regulations, staff will only mute members and 
witnesses as appropriate when they are not under recognition, 
to eliminate background noise.
    I see that we have a quorum. I will now recognize myself 
for opening remarks.
    And pursuant to notice, we are holding a hearing on the 
ongoing conflict in Syria. A month ago, we marked 10 years 
since the Syrian people rose up to demand dignity, freedom, and 
a voice in shaping their government. In response, Bashar al-
Assad raged a brutal crackdown with the help of outside 
support, ushering in a decade of conflict--and counting--and 
spawning a proliferation of global terrorism.
    The struggle for the future of Syria has led to the deaths 
of more than 600,000 people and the displacement of more than 
12 million, both inside Syria and around the Middle East. The 
crisis has destabilized neighboring Lebanon, Iraq, Jordan, and 
Turkey, and threatened Israeli security. It has no doubt 
changed the region for decades to come.
    The civil war created a radicalizing governance vacuum that 
helped launch ISIS. Although ISIS has been effectively 
dismantled by the United States and more than 75 allies and 
partners, it and its global franchises remain a lethal threat. 
The United States must prevent a resurgence of ISIS which would 
directly threaten regional stability, our European allies, and 
the American people.
    Recent headlines related to Syria_reports on Assad's use of 
chemical weapons, widespread economic misery and obstacles to 
delivery of humanitarian assistance_are agonizing reminders 
that the conflict is far from over and that the Syrian people 
continue to suffer. In the past few years, ongoing fighting in 
Idlib plunged nearly a quarter of Syria's population into 
further humanitarian crisis. Increased strikes from Assad's 
forces continually set up potential clashes between Syria and 
Russia and Turkey.
    The deescalation zone agreed to during the previous 
administration, which saw the U.S. pull back from our Kurdish 
partners, was never fully implemented. And while the fighting 
has stalled, the conditions in Idlib remain dire. In February, 
the United Nations estimated that 13.4 million people in Syria 
required humanitarian and protection assistance, almost a 20 
percent increase in 1 year. Additionally, approximately 5.6 
million Syrian refugees throughout the Middle East require aid.
    On March 30th, U.S. Ambassador to the United Nations, Linda 
Thomas-Greenfield, announced more than $596 million in new 
humanitarian assistance for the Syrian crisis. I applaud this 
announcement. The United States must continue to aid the Syrian 
people and also advocate for unfettered humanitarian access 
including by defending cross-border assistance.
    In addition to humanitarian concerns, the Syrian conflict 
affects other U.S. national interests. The conflict allowed 
Iran to expand its influence throughout the Middle East. Russia 
has used a foothold in Syria to expand its political, military, 
and economic influence, attempt to reclaim its status as a 
great power, and promote itself as a authoritarian alternative 
to the United States.
    Assad, Russia, and Iran continue to brutalize the Syrian 
people, violate cease-fires, and flagrantly disregard 
international law by attacking hospitals, schools, shelters, 
health clinics, and residential areas. On Monday, the 
Organisation for the Prohibition of Chemical Weapons claimed 
that Assad retained sufficient chemicals to use sarin gas, to 
produce and deploy chlorine munitions, and to develop new 
chemical weapons.
    In the last decade, Assad has unjustly detained and 
tortured tens of thousands of Syrians including Omar Alshogre 
who joins us today. Assad also continues to imprison several 
Americans including Austin Tice who has been detained since 
August 2012, and Majd Kamalmaz who was arrested in February 
2017. I look forward to working with the Biden Administration 
to free Austin and Majd as well as all Americans unjustly 
detained in the Middle East and around the world.
    Congress has sought to play a role in supporting the Syrian 
people and resolving the conflict through both humanitarian aid 
and the Caesar Syria Civilian Protection Act. The legislation 
mandates additional sanctions on enablers of Assad including 
anyone who does business with or provides financing to his 
regime, his intelligence and security services, or the Central 
Bank of Syria.
    The leverage created by the Caesar Act seeks to help end 
the Syrian conflict through a negotiated diplomatic solution 
which is vital to stabilizing the Middle East, protecting U.S. 
interests in the region, and providing a better future for the 
Syrian people. This is the challenging environment in which the 
Biden Administration must develop its Syria policy. Achieving a 
political resolution in Syria has bedeviled the previous two 
administrations and President Biden's team faces difficult 
decisions and tradeoffs in the coming months. Congress stands 
ready to support a strategy that will advance U.S. national 
interests, deliver dignity and peace that the Syrian people 
have bravely pursued for more than a decade. After 10 years, we 
must let the Syrian people know that this Congress has not 
forgotten them.
    I look forward to hearing from our witnesses on how we can 
realize these goals and I will now yield to the ranking member 
for his opening remarks.
    Mr. Wilson. Yes. Ladies and gentlemen, I want to thank 
Aviva Abusch for her coordination. Mr. Chairman, she has done a 
great job getting this together.
    And I want to thank you, Chairman Ted Deutch, for calling 
this very important hearing at an extraordinary time in 
history. It has been over 10 years since the Syrian revolution 
began. Let us not forget that we saw play out in international 
media when thousands of brave Syrians shouting ``peaceful, 
peaceful'' were met with bullets, barrel bombs, and other 
unthinkable horrors. As I have said before, the Assad regime is 
illegitimate and should be replaced to benefit the people of 
Syria.
    And I know how talented the people are of Syria, with 
American citizens of Syrian Lebanese heritage being business 
and political leaders in my home State of South Carolina with 
dynamic assimilation. There is no solution to this crisis so 
long as President Assad remains in power. Ten years later, it 
is clear that failure to act in Syria and failure to enforce 
red lines was a critical mistake that has led to devastating 
consequences and led to destabilization in the entire Middle 
East.
    In unleashing his reign of terror, Assad has been assisted 
by the Russians in the air and Iranian-backed terrorist groups 
on the ground. Attempts to work with both countries to resolve 
the conflict have only led to failure. After 10 years of 
atrocities, it is unfathomable that Assad, Russia, or Iran 
would be a part of any solution as they are the root of the 
problem.
    To respond to the tragedies of Syria, Congress has acted in 
a bipartisan way in passing this Caesar Syria Civilian 
Protection Act. Last Congress, as chairman of the Republican 
Study Committee's Foreign Affairs Task Force, I was grateful to 
release a detailed report which included multiple 
recommendations to strengthen the Caesar Act and achieve a 
future for Syria free of the brutal Assad regime.
    Based on this report, I am also grateful to introduce Stop 
the Killing in Syria Act in the 116th Congress. Additionally, I 
introduced the bipartisan Stop U.N. Aid for Assad, which would 
end the illogical policy of providing U.S. taxpayer support to 
U.N. entities in Syria which were directly funding the Assad 
regime. This policy idea is not radical. It should be a common 
sense. It was actually first recommended by Ambassador Robert 
Ford, President Barack Obama's Ambassador to Syria.
    As we speak, the Assad regime is ramping up its efforts to 
wipe out Idlib province, something they have promised to do 
before. Despite our important differences with Turkey, I am 
grateful that the Donald Trump administration worked with 
Turkey to stop the Assad regime's assault on Idlib last year. 
Yet, more must continue to be done to deter the Assad regime 
from an assault which creates the biggest refugee crisis yet in 
the history of the conflict, which threatens to again overrun 
Europe.
    This time, as always, is the time to act. How many more 
Syrians will lose their lives in communities before we act? 
Thank you to the witnesses for their time and expertise. It is 
particularly helpful to have the honor of Omar Alshogre, a 
champion for the people of Syria, a courageous survivor of 
Assad's notorious Branch 215 prison, with us today, and I thank 
him for his work and bravery for the people of Syria.
    With that, I yield back to Chairman Ted Deutch.
    Mr. Deutch. Thank you very much, Mr. Wilson.
    I will now introduce our distinguished witnesses. Dr. Lina 
Khatib is the director of the Middle East and North Africa 
Programme at the Royal Institute of International Affairs, 
Chatham House. She was formerly director of the Carnegie Middle 
East Center in Beirut and co-founding Head of the Program on 
Arab Reform and Democracy at Stanford University's Center on 
Democracy, Development, and the Rule of Law. Her research 
focuses on the international relations in the Middle East, 
Islamist groups and security, political transitions and foreign 
policy, with special attention on the Syrian conflict.
    Mr. Omar Alshogre is a Syrian public speaker, detention 
survivor, and a current Georgetown University student. Mr. 
Alshogre was smuggled from prison and fled Syria at the age of 
20 after being arrested and imprisoned for participating in 
demonstrations against the regime. He currently engages in 
awareness raising for the situation in Syria and leads the 
Syrian Emergency Task Force's efforts to advocate for the 
liberation of detainees as the Director of Detainee Affairs.
    And Ms. Jennifer Cafarella is the inaugural National 
Security Fellow at the Institute for the Study of War, a 
position created to sponsor rising national security leaders. 
She previously led ISW's Syria Team before becoming director of 
Intelligence Planning and then its research director. She is a 
graduate of ISW's Hertog War Studies Program and she has 
written extensively on Syria, Iraq, al-Qaida and ISIS, and 
regularly briefs military units preparing to deploy on a range 
of subjects including Syria, ISIS, and Russia. We are glad to 
welcome her back to testify again before the subcommittee.
    I thank all of the witnesses for being here today. I now 
will recognize the witnesses for 5 minutes each and, without 
objection, your prepared written statements will be made a part 
of the record.
    Dr. Khatib, you are recognized.

   STATEMENT OF LINA KHATIB, DIRECTOR, MIDDLE EAST AND NORTH 
                AFRICA PROGRAMME, CHATHAM HOUSE

    Dr. Khatib. Mr. Chairman, Ranking Member, members of the 
committee, thank you for inviting me to testify today. Let's 
remember that we are having this hearing partly because of U.S. 
disengagement on Syria over the past decade. Disengagement 
prolonged the conflict and created a vacuum exploited by Russia 
and Iran.
    Today, I am going to present ten available options for U.S. 
Syria policy which must be pursued together. One, the 
performance of previous U.S. administrations showed that saying 
the right things about the Syrian crisis is not enough. Their 
decoupling of rhetoric from action hurt U.S. credibility in the 
eyes of enemies and allies. The Biden administration can 
rectify the mistakes of the past by linking words and deeds.
    Two, the Syrian conflict can only end through the United 
States initiating bilateral talks with Russia. Russia's 
intervention in Syria is driven by a desire for international 
and American recognition. Russia can accept sacrificing Assad's 
presidency in return for maintaining some influence for itself 
in Syria both political and military. Russia is likely to 
accept the formation of a transitional government in Syria, not 
as an outcome of the U.N. peace process, but as the outcome of 
bilateral negotiations with the United States.
    Three, the U.S. should ensure that the U.N.-led peace 
process continues, but this process must be reformulated to 
become the mechanism for implementation of a Russian-U.S 
brokered peace deal based on supporting the formation of 
legitimate political, military, and economic alternatives to 
the Assad regime.
    Four, the U.S. must pursue a comprehensive strategy to 
limit Iran's intervention in the Middle East. Negotiations over 
the nuclear deal must not be separated from negotiations over 
Iran's regional role. Both need to run simultaneously.
    Five, the U.S. must maintain a military presence in 
northeast Syria. Withdrawing troops hands over the northeast to 
Iran-backed groups who would acquire resources like oil and 
make the border with Iraq porous, threatening U.S. assets and 
allies in Iraq.
    Six, ISIS continues to pose a threat to U.S. national 
security and the world, but the global coalition to defeat ISIS 
must widen its campaign into a comprehensive strategy, going 
beyond military action to also cover social, economic, and 
political components, addressing the grievances that drive 
people to join groups like ISIS, like tensions between Arabs 
and Kurds. The U.S. must also ensure that any governance model 
implemented in northern Syria is transparent, effective, and 
inclusive of all ethnic groups. This would help lessen tension 
with Turkey regarding Kurdish controlled governance.
    Seven, the U.S. must engage Turkey to jointly support the 
Syrian opposition in Idlib. Eight, the U.S. must support Syrian 
civil society to push for accountability for war crimes. This 
prevents those convicted of war crimes from ascending to power 
once a resolution to the conflict happens. Nine, the U.S. must 
hold the United Nations accountable regarding the distribution 
of aid inside Syria to prevent the Syrian regime from diverting 
aid to suit its interests. The U.S. must also open direct 
channels with civil society inside regime-controlled areas to 
counter Iran's strategy of grassroots level control.
    Finally, the U.S. must maintain sanctions against the Assad 
regime and anyone associated with it, Syrian or not, but 
mitigate sanctions' indirect impact on people. Sanctions are 
necessary, but not sufficient to push the conflict to a close. 
Peace in Syria requires a comprehensive strategy that only the 
U.S. can lead. Thank you.
    [The prepared statement of Dr. Khatib follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Deutch. Thank you very much, Dr. Khatib.
    Mr. Alshogre, you are recognized for 5 minutes.

STATEMENT OF MR. OMAR ALSHOGRE, SYRIAN PUBLIC SPEAKER AND HUMAN 
RIGHTS ACTIVIST, DIRECTOR OF DETAINEE AFFAIRS, SYRIAN EMERGENCY 
                           TASK FORCE

    Mr. Alshogre. Thank you for inviting me to give my 
testimony. I want to thank Chairman Deutch, Ranking Member 
Wilson, Chairman Meeks, and Ranking Member McCaul for their 
dedication to stopping the killing in Syria. Today, I am 
sitting in the most democratic institution of the United States 
of America--the people's House. And I hope 1 day, Syria will 
have one too.
    Ten years ago, when I was 15, the people of Syria began 
asking for democracy and representation inspired by the United 
States and its ideals. We all took to the streets singing for 
freedom and democracy. We went to the streets singing for 
freedom and democracy and we were holding flowers in our hands. 
For my peaceful participation in these demonstrations, the 
regime detained and tortured me. They even pulled out my 
fingernails.
    I spent 3 years in prison alongside my young cousins, one 
of whom, Bashir, died in my arms after enduring the years of 
torture. Months after my arrest, I learned that my father and 
two of my brothers were dead. My village al-Bayda was in ruins. 
Assad regime massacred my entire community. All of my childhood 
friends were dead. Assad regime feared al-Bayda's hope would 
spread to the surrounding cities, so they killed everyone they 
could find. The regime forces even filmed their brutalities. 
Videos of them slaughtering the people of my hometown are 
everywhere. I even found a video of them killing my own father.
    By a miracle, I escaped prison and reached Idlib, the 
remaining opposition sanctuary in Syria, which once was home to 
one and a half million people; today, it houses four million 
civilians, about a million of them children. These people have 
done nothing wrong but ask for freedom and basic rights. Only 
in Idlib was I offered some care and protection and when I was 
able to leave the country to seek medical treatment, Sweden, 
thankfully, gave me asylum.
    Today, I am proud to come before you as a student at 
Georgetown University and Director of Detainee Affairs at the 
Syrian Emergency Task Force. I know that many of you have been 
committed to support democratic aspirations of the Syrian 
people and I have had the honor of meeting with many of you 
personally, so I want to thank you.
    I thank you for the Caesar Syria Civilian Protection Act of 
2019. I want to urge you to continue to ensure full 
implementation of the act, with a special focus on stopping the 
war machine that the Assad regime, Iran, Russia, and Hezbollah 
aimed against Idlib. If the existing cease-fire collapses and 
the Assad regime continues its offensive with conventional and 
chemical weapons, those four million civilians currently in 
Idlib will face detention, displacement, or death, and any 
prospect of negotiating a settlement will be off the table.
    If we do not protect the people of Idlib, there will be 
mass humanitarian atrocities eventually surpassing the numbers 
of Srebrenica, significant levels of displacement which could 
potentially double the number of refugees in Europe and an 
increase in extremism. Extremist actors will manipulate the 
lack of actions in their own propaganda and recruitment 
efforts, presenting themselves as the only civilian defense 
line.
    If Idlib falls, Russia, Iran, and the Assad regime will 
then focus their efforts on northeast Syria, increasing the 
challenge for U.S. force protection efforts and endangering 
U.S. partner forces. As former U.S. envoy to Syria, Ambassador 
Frederic Hof said, an Assad victory would ``entrench Syria as 
the North Korea of the Middle East.'' By protecting Idlib, the 
United States would effectively prevent Assad military victory 
and, in doing so, would be conducive to political solution and 
a negotiated settlement as per U.N. Security Council Resolution 
2254.
    In January 2020, the Assad regime and its allies began to 
revamp their relentless offensive on Idlib which resulted in 
massacres against civilians and displacement of almost 500,000 
in the matter of a week. Fearing a massive flow of refugees, 
Turkey intervened, standing up to Russia and fighting against 
Iranian-backed militias including Hezbollah and Assad forces. 
NATO troop presence in Idlib resulted in a fragile cease-fire 
that is on the verge of collapse today.
    The United States must support its NATO ally, Turkey, to 
ensure that the existing cease-fire in northwest Syria is 
maintained and made permanent. This can be done without sending 
additional U.S. troops to Syria, because there is four main 
areas the U.S. can
    [inaudible] ties and should. The U.S. must pursue and 
strengthen efforts toward an immediate cessation of attacks on 
Idlib civilians by engaging military-to-military conversations 
with Turkey and then providing them with logistical and 
diplomatic support.
    The United States must bolster its diplomatic efforts with 
Geneva to renew Bab al-Hawa humanitarian border crossing and 
reopen Bab al-Salam and Al Yaroubiyah crossing to deliver 
humanitarian aid. The United States must step up support for 
existing independent civilian infrastructure in Idlib to 
counter this threat of extremist ideology and propaganda 
efforts. The United States must intensify and broaden Caesar 
Act accountability efforts.
    This war, ladies and gentlemen, began with civilians like 
me calling for freedom. It was inspired by you, the United 
States. We wanted Syria to be a country of the people, by the 
people, for the people. I am honored to be sitting here today, 
but I do so with an enormous responsibility to convey to you 
the voices of the Syrian people, the thousands of civilians 
tortured to death in the Caesar photos, many of whose lifeless 
bodies the regime forced me to number. It is incumbent upon us 
that we save those who remain and we seek justice for those we 
have lost.
    Thank you.
    [The prepared statement of Mr. Alshogre follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

       
    Mr. Deutch. Thank you very much, Mr. Alshogre. We 
appreciate it.
    Ms. Cafarella, you are now recognized.

STATEMENT OF MS. JENNIFER CAFARELLA, NATIONAL SECURITY FELLOW, 
                 INSTITUTE FOR THE STUDY OF WAR

    Ms. Cafarella. Chairman Deutch, Ranking Member Wilson, and 
distinguished members of the subcommittee, thank you for 
inviting me today. I am honored by the opportunity to testify 
again about the devastating impact of Syria's now decade-long 
war and how the U.S. might better safeguard American interests 
while making an end to the violence possible.
    For 10 years, Syrian President Bashar al-Assad has chosen 
to torture, execute, bomb, and starve his own people rather 
than grant even modest concessions. The OPCW just this week 
implicated his forces in yet another chemical weapons attack 
against civilians, this one in 2018. Assad's violence has 
upended the Middle East, caused instability to ripple across 
Europe, and inflamed the global jihadist movement. But today, I 
would like to shift focus to put Assad in his proper place 
within the Syrian war.
    Assad is resilient and capable, but he cannot alone 
determine Syria's future. The war being fought in 2021 is much 
different from the one that began a decade ago when Assad chose 
violence against peaceful protesters. The Syrian battlefield is 
now a tapestry of transnational military forces who are locked 
in a complex and multisided power struggle. Foreign forces 
including the Russian and Turkish militaries, Iran's 
Revolutionary Guard Corps Quds Force and its foreign proxies, 
and various foreign jihadists as well as U.S. forces now 
control or influence much of the Syrian battlefield.
    An agreement between international actors is now a 
prerequisite for ending the conflict, but it is unlikely in the 
near term. Moreover, no actor currently fighting in Syria can 
seize and hold all of the country and most are pursuing goals 
that are incompatible with a durable partition. The war will 
continue with increasingly global repercussions and leaving 
behind the Syrians who rose up to reclaim their country and who 
still represent Syria's future.
    Policy goals that were reasonable in 2011, are no longer 
appropriate a decade later. The U.S. will not achieve a 
nationwide cease-fire in Syria which has become a fully 
discredited notion. A diplomatic settlement of the war is also 
out of immediate reach. Assad refuses to negotiate even now as 
his economy collapses and new unrest among loyalist communities 
emerges. His behavior indicates he believes time is on his 
side.
    America's habit of choosing unattainable goals in Syria has 
cost us opportunities to make an impact and has made us 
vulnerable to a number of strategic traps that would worsen the 
conflict. They include accepting Assad and lifting sanctions on 
his regime; supporting Syrian Kurdish independence, or the 
opposite extremism, abandoning our Syrian Kurdish partners to 
Turkey; normalizing al-Qaida's offshoots; or, most importantly, 
expecting Russia either to play a constructive role or to fail 
in Syria, including outsourcing counterterrorism or countering 
Iran to Russia, expecting Russia to deliver an diplomatic 
settlement that ends the war or expecting Syria to become a 
quagmire that weakens Russia.
    The Russia traps are the most dangerous. Viewing Russia as 
a potentially constructive actor overlooks Syria's importance 
to Russia's global ambitions. Russia is using its military 
bases in Syria as a springboard to expand military 
infrastructure across the Middle East and North Africa. 
Russian's efforts to coopt the U.N.-led diplomatic processes 
are weakening international systems that would otherwise 
restrict Russia's malign activity.
    Empowering Russia and Syria is the same as strengthening 
Vladimir Putin's bid to make Russia a global power. These are 
not America's only options. Once we set aside unrealistic goals 
more constructive options emerge. I recommend the following:
    First, reinforce our successes. The U.S. should reevaluate 
the stabilization and military assistance needed to bolster our 
partner in eastern Syria, the Syrian Democratic Forces or SDF, 
and commit to providing cross-border humanitarian aid even if 
Russia vetoes approvals for it at the U.N. Security Council.
    Second, constrain U.S. adversaries by upholding sanctions 
on Assad and his backers and continuing counterterrorism 
pressure against both ISIS and al-Qaida. I recommend going even 
further to hold Russia accountable by commissioning a 
congressional study of Russian war crimes in Syria, Ukraine, 
and other theaters as appropriate. The U.S. should also provide 
diplomatic and economic assistance to Turkey to prevent another 
attack on Idlib province.
    And third, the U.S. should build for the future. The U.S. 
should launch a robust diplomatic effort to foster dialog 
across as much of Syrian society as possible while sidelining 
Assad and his backers. Support to the SDF in eastern Syria is 
also a vital component of building to the future and should 
include pressure on the SDF to reform its governance model to 
provide better political inclusion and accountability. The U.S. 
has experienced the consequences of a decade of avoidance in 
Syria and they are unacceptable. It is time to commit to 
engagement. Thank you again for the opportunity to testify 
today and I look forward to your questions.
    [The prepared statement of Ms. Cafarella follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

       
    Mr. Deutch. Thank you, Ms. Cafarella.
    Thanks to all the witnesses for your really thoughtful 
testimony today.
    I will now recognize members for 5 minutes each, and 
pursuant to House rules, all time yielded is for the purposes 
of questioning our witnesses. Because of the virtual format of 
this hearing, I will recognize members by committee seniority, 
alternating between Democrats and Republicans. If you miss your 
turn, please let our staff know. We will circle back to you 
after you let us know. If you seek recognition, you must unmute 
your microphone and address the chair verbally.
    I will defer my time, so we will start by recognizing Mr. 
Connolly for 5 minutes.
    Mr. Connolly. Mr. Chairman, thank you so much and thank you 
for graciously allowing me to go first. And let me first begin 
by saying, Omar, our hearts go out to you and your family. It 
is almost unimaginable the scale and scope of your losses, your 
personal losses, and those of millions of your countrymen and 
women. It is a tragedy that is hard to encompass.
    Ms. Cafarella, I was intrigued by your critique which I 
think is quite cogent about sort of from the U.S.'s 
perspective, 10 years squandered, although I am struck by the 
fact that for the United States all along, in both the Obama 
and Trump administrations, it was very hard for us to figure 
out who are the good guys. Who is it we should support?
    And one thing you did not address and I would ask you maybe 
now to address it and that is the role of Turkey. The one ally 
we found that was willing to fight on the ground and actually 
had success were the Kurds. And, of course, the Turks are 
paranoid about the Kurds establishing a military foothold that 
it can defend in the Idlib area of Syria, and yet they are the 
only ones who really had military success in pushing back the 
Caliphate and, frankly, in going toe to toe with Syria with the 
Assad forces.
    So how does Turkey complicate this and how can we try to 
engage them in a way that is more constructive and then isn't 
just focused on deterring or pushing back Kurdish gains that 
substantially have challenged Assad in that part of the 
country?
    Ms. Cafarella. Thank you, sir, for the question. It is an 
excellent and very important one. I would frame Turkey as both 
ally and adversary in Syria. And I start there because I think 
it is important to recognize that the U.S. cannot afford to 
treat him, to treat the Turkish President as either just an 
adversary or just an ally. He is behaving in ways that are 
unacceptable for American interests, in part by driving the 
conflict by conducting ethnic cleansing as you alluded to. 
However, the United States still needs Turkey and, actually, 
Turkey is the largest supporter of remaining elements of the 
pre-Syrian army and other acceptable elements of the Syrian 
opposition.
    Turkey also intervened to prevent the massacre in Idlib 
province that Assad and his backers were trying to conduct. The 
U.S. and Turkey still need each other in Syria. We are still 
aligned overall on the kind of outcome that needs to occur in 
order to end the conflict in Syria which is a diplomatic 
resolution of the conflict that actually reconciles elements of 
the Syrian opposition. We need to get there.
    What I have offered is a series of first steps to realign 
the United States with Turkey, in part by providing it economic 
and diplomatic assistance in Idlib. I also recommended in my 
written testimony that the U.S. begin discussions of what kinds 
of military support the Turks may need in Idlib, likely 
logistical support, and I think the U.S. also needs to work 
with Turkey to ensure that Russia does not succeed in ending 
the humanitarian aid access from Turkey into Syria.
    That should include access to our local partner in eastern 
Syria, the SDF, not just Idlib, but I think if the U.S. finds 
common ground with Turkey and is actually willing to support 
some elements of Turkey's policies in Syria, we will find there 
is more room to actually bridge between what the U.S. is doing 
in the east and what the Turks are doing in the north and 
farther west. It is difficult. It will take time. But that is 
where I would start.
    Mr. Connolly. So, thank you. One of the conditions laid 
down by Turkey early on was that Assad had to go, that any 
peace agreement, any settlement had to be done without Assad. 
And off and on, the United States has tinkered with that as 
well. Does that remain a realistic goal in light of the reality 
on the ground and how do we adjust to that in terms of ultimate 
contours of a peace settlement even sitting down to try to talk 
about a settlement?
    Ms. Cafarella. Yes, and thank you. I do think it is an 
important long-term goal, but I emphasize long term. We will 
not get there in 1 year, two, or probably even three or four. 
In order to make that outcome more possible over time to enable 
some form of a transitional government to come into place, the 
U.S. needs to build back options to replace the Assad regime 
that Assad has destroyed since 2011. That starts by committing 
to support to our current partner of the SDF in the east, but 
also to supporting Turkey and its local partners.
    Long term, we need to align these structures which actually 
represent governance and security structures that control most 
of the Syrian population outside of Assad's control, which is a 
significant component of Syrians that also extends into the 
Syrian refugee population, which is not coming back to Assad 
regime-controlled areas. Making Assad's departure from power 
possible starts with supporting the elements of the opposition 
that currently survive in Idlib in the north and in the east 
and realigning U.S. and Turkish policies.
    Mr. Connolly. Thank you, Ms. Cafarella.
    And, thank you, Mr. Chairman. I yield back.
    Mr. Deutch. Thank you very much, Mr. Connolly.
    I will now turn it over to the distinguished ranking member 
from South Carolina, Mr. Wilson.
    Mr. Wilson. Thank you very much, Mr. Chairman. And, gosh, 
this is an extraordinary hearing. I want to thank you, Chairman 
Deutch, for putting this together. It is so inspiring the three 
witnesses we have. Thank you for what you are doing on behalf 
of the people of Syria, and then I appreciate the bravery that 
you have of presenting these points, your insight of the 
witnesses, and something that it very impressive, you have 
truly unified people of both political parties in the United 
States to share a concern.
    And I was just grateful to see the comments by Chairman 
Gerry Connolly. We just want to express such sympathy, Omar, to 
your family, but I know your family would be so proud to see 
how vocal you are, how articulate, and how you are making a 
difference and so I want to wish you well. And, gosh, it is so 
important that we work together on behalf of the people of 
Syria and I am just so grateful that we have this hearing 
today.
    With that, for each one of you, beginning with Dr. Khatib, 
why do you think the Biden Administration has been reluctant to 
enforce the sanctions against the murderous Assad regime and 
impose new sanctions under the Caesar Act which sanctions could 
be implemented now?
    Dr. Khatib. Thank you. On sanctions, I think, all of them. 
The sanctions that are currently discussed are all urgent. The 
Caesar Act especially, I think, could be widened and tightened. 
There is no excuse to lift sanctions right now. There is a lot 
of lobbying by Russia in particular, which, unfortunately, is 
having some echo even in places in Europe and the Arab world, 
saying that sanctions are the reason behind the economic crisis 
in Syria.
    The reality is the sanctions are hurting the Assad regime, 
but the Assad regime is still able to find ways around them. So 
in my view, the sanctions are not just all implementable, but 
can be and should be tightened further. Thank you.
    Mr. Wilson. Thank you.
    And our next, Mr. Alshogre?
    Mr. Alshogre. Yes, thank you. Thank you, Ranking Member, 
and thank you for your empathy regarding, sympathy regarding my 
family. I hope they are proud of me today.
    Mr. Wilson. Oh, hey. They are, OK.
    Mr. Alshogre. Thank you. Thank you.
    Regarding the sanctions, since the start of the 
implementation of the Caesar Act, you know, just how the regime 
in Syria, as soon as the regime, you know, start talking about 
any sanction hurting them that means actually hurting them. It 
is not hurting the people. The regime is trying to market the 
act as it is hurting the civilians of Syria, but the ones who 
destroyed the economy in Syria are clearly the ones who are 
killing its own people, right, so it is the Syrian regime.
    So we had the names that have been sanctioned, yet are 
those--answer this question of like how can these sanctions 
hurt the civilians, it is kind of easy. Just think about names, 
like how would sanctioning the wife of the president will get 
him richer while the people in Syria are getting in a worse 
situation would affect the civilians.
    And we have--the Caesar Act as you know have no sanctions 
on any necessary needs for people on a daily basis. I really 
think it is so important to keep working on it. The COVID-19 
pandemic has affected how fast implementation of the act could 
be, but I really believe that limiting the resources the regime 
in Syria can have it is really important to limit the number of 
people dying every day, so we should not just sanction people 
who are in Syria. That might be even less effective because the 
flow of money coming from outside--the Iranians and the 
Russians and other allies of the Syrian regime--those are the 
ones that really should be targeted and that can be limiting 
the atrocities that is happening in Syria. Thank you.
    Mr. Wilson. Thank you for your insight.
    And, Ms. Cafarella?
    Ms. Cafarella. Yes. Thank you, sir. What I would only add 
briefly is I think the United States needs to consider the 
enforcement of secondary sanctions especially against U.S. 
allies and partners in the Arab Gulf that have continued to 
normalize with the Assad regime and may be investing in Syria 
despite the U.S. sanctions and under significant pressure and 
enticement from the Russians. Thank you.
    Mr. Wilson. OK, thank you.
    And as I yield back, I want to thank Chairman Deutch. This 
is so impressive, the witnesses we have, and it is so 
refreshing to be working with our colleagues across the aisle. 
This is so important for the people of Syria. It is so 
important for the Middle East and what opportunities we have. 
And so I look forward to continuing working with Chairman 
Deutch on these issues and our colleagues in a bipartisan 
manner. Thank you very much. I yield back.
    Mr. Deutch. Thanks very much, Mr. Wilson. I concur fully 
and appreciate the opportunity to work together on these really 
important issues.
    Next, I will yield 5 minutes to the gentleman from Rhode 
Island, Mr. Cicilline.
    Mr. Cicilline. I thank you, Chairman Deutch and Ranking 
Member Wilson, for calling this hearing to help us understand 
how we might have more effective policy as it relates to Syria, 
and thank you to the extraordinary witnesses for sharing your 
testimony. And in particular, I would like to thank Mr. 
Alshogre--I hope I pronounced your name correctly--for sharing 
your incredible story. And I too want to convey to you my 
sympathy for the horrors you suffered and for the pain of loss 
of your family. It is just incomprehensible to most of us and I 
think it underscores the urgency of getting our policy right 
and doing all that we can to end this regime.
    But I want to focus for a moment on the Caesar Syria 
Civilian Protection Act because I know sanctions have been put 
in place, but I am interested to know from you, sir, what 
impact you think these sanctions are actually having on regime 
behavior and on the behavior of regime enablers and on the 
economy in Syria.
    And, second, very few designations have been made for non-
Syrian entities despite the fact that outside backers were 
really the main focus of the legislation and as you know, sir, 
really, as a lifeline to the Assad regime. And I know that is 
in part because the threat of sanctions has deterred some of 
these from engaging in sanctioned activity.
    But there are many non-Syrian regime supporters who would 
be eligible for designation and I am interested to know whether 
you would encourage the administration to use the Caesar 
sanctions more aggressively against non-Syrian, especially 
Russian, entities.
    Mr. Alshogre, that is for you.
    Mr. Alshogre. Thank you, sir. Thank you for your sympathy. 
And I, at the Task Force, the organization I am working at, we 
have designed an app called Syria Watch, and this app give you 
notification on every attack happens on civilians in Syria, and 
give you a short description of the attack and what kind of 
attack and how many victims we have.
    Since we started the implementation of the Caesar Act, we 
have noticed the reduced number of attacks on civilians and 
that is definitely affected by COVID-19--the regime had to 
create a new strategy--but also, I am sure, affected by the 
regime limitation to have access to fuel their death machine.
    So I definitely encourage the U.S. administration to 
aggressively use these sanctions against those who are 
supporting the Assad regime in Syria, because we know the 
economy in Syria is not great enough to fuel itself, its own 
death machine, right, so they need external actors. And they 
are betting on something, especially the Russian.
    The Syrian regime without the Russian probably would have 
fallen a long time ago because Syrian opposition took over most 
of the country in 2014, and then we get Russians bombing the 
civilians 2014, 1915, and that is how they actually managed to 
gather people in Idlib, and people in Idlib right now are in 
danger. Thank you.
    Mr. Cicilline. Thank you.
    And, Ms. Cafarella, I know you spoke about our relationship 
with Turkey that they are both an adversary and an ally and it 
is a complicated relationship, but I know there has been 
reporting that 200,000 Syrian Kurds were displaced in northeast 
Syria by the invasion by Turkey, including local humanitarian 
staff who had been really giving important lifesaving 
assistance and including as many as 70,000 children.
    So I would like to know, what is the status of those 
displaced by Turkey's invasion? Is the cease-fire durable and 
is there a significant risk that fighting could break out 
between the SDF and Turkey in this region once again, and how 
do we engage with Turkey in a productive way, and also on our, 
I think, our responsibility to the Kurds who are such a 
critical partner in our fight to defeat ISIS in that region?
    Ms. Cafarella. Thank you, sir. To my knowledge, those who 
were displaced by the Turkish incursion, actually all the 
Turkish incursions remain displaced and so this is a very 
vulnerable population that is not able to return to their 
homes. The cease-fire I do not think is durable over the long 
term, and I say that because we only reached it by placing 
significant leverage on the table against Turkey which included 
aggressive sanctions against high-level Turkish officials.
    That was important for changing Erdogan's calculus about 
what he could achieve in Syria on what timeline and with what 
cost. I emphasize that because the way to shape Turkey's 
behavior in Syria and to find opportunities to realign as 
allies is to actually recognize that this is power politics. 
This is not allies collaborating in a war zone. This is power 
politics.
    And I testified last year that I think the United States 
needs to learn from how the Russians have successfully 
navigated a relationship with Turkey. They are on opposite 
sides of the war and yet they have been able to find consensus 
on a number of issues because they understand the leverage game 
that they are in and they are both acquiring and using leverage 
over each other to change their decision calculus. We need to 
do the same with Turkey. It is possible, and I do think by 
applying more leverage including reinforcing our relationship 
with the SDF and signaling clearly that we will not abandon 
those Kurdish partners and their Arab allies and that we are 
also serious about ensuring that the Turks will not extend 
their incursion further, that actually gives us leverage and it 
enables us to reapproach very tough negotiations that we do 
need to have with our NATO partner in coming months and years. 
Thank you.
    Mr. Cicilline. Thank you so much.
    Mr. Chairman, I yield back.
    Mr. Deutch. Thank you, Mr. Cicilline.
    Mr. Perry, you are recognized for 5 minutes.
    Mr. Perry. Thank you very much, Mr. Chairman and Ranking 
Member, for hosting this hearing and for having it. This is a 
intractable issue and subject and this is really informative. 
This is great.
    Mr. Omar, your testimony brings to--makes real the things 
that we have heard in the past. And as horrific as it is--it 
is, indeed, horrific--it is important for your story to be told 
to the world, and I thank you and I acknowledge how painful it 
must be to continue to talk about these things, but to 
encourage you to continue to discuss them so the world can see 
what has happened. And so we thank you for your presence.
    Ms. Cafarella, you know, I am looking for, and I have 
looked through your six points and I think you are realistic in 
your assessment. As a representative as each of us are of the 
American people who are looking for--we have to respond, 
rightly so, to our constituency and say, well, this is the 
goal. This is why America is here. This is our interest in 
being here, and I want to talk to you particularly about the 
military, the United States military presence in Syria and is 
there a way to diminish our presence and not diminish our 
effectiveness?
    Is it absolutely necessary, in your opinion, over the short 
or long term to have uniformed service members of the United 
States military serving in Syria?
    Ms. Cafarella. Thank you for the question, sir. In the near 
term, I do believe, actually, I assess that it is necessary for 
the U.S. to sustain our uniformed military presence on the 
ground in Syria. The reason I assess that is because upon an 
American withdrawal from Syria, the vultures who are currently 
circling our local partner including the Russians, the Turks, 
the Assad regime, the Iranians, ISIS, and actually even 
elements of al-Qaida, will pounce and they will attack the SDF 
and it will fail.
    However, I do think the most important use of American 
military forces in Syria are to create the security conditions 
within which the U.S. can help improve the stability of the 
SDF, be less reliant on the United States over time, to create 
a platform for humanitarian assistance and development aid to 
actually stabilize the area, and then to broker an agreement 
with Turkey that actually normalizes that relationship and 
enables the U.S. to scale back down our military pressure.
    The approach of by, with, and through a local partner has 
been extremely successful at a relatively low involvement of 
U.S. forces in defeating the Islamic State and making this 
opportunity possible, but if we bail now, we will fail to 
actually convert that opportunity into an enduring outcome. It 
is not the time. I do not think that the United States needs to 
withdraw and I think with a relatively limited further 
investment, we actually can make a sustainable withdrawal 
possible in the medium term.
    Mr. Perry. All right. And continuing on that line because I 
think that is a measured and well thought out approach, but, 
you know, folks like us, we have to have some expectation and I 
think it is appropriate that we see the light at the end of the 
tunnel.
    So while you talk about--and I do not want to put words in 
your mouth but, you know, I think limited or for some period of 
time, what do you assess are the metrics, OK? And I know that I 
am putting you on the spot, right, this is tough stuff. What do 
you assess are the metrics and what kind, and without 
advertising because I do not think it is appropriate to 
advertise to your adversaries or your enemies what your 
timeline is, but some kind of an expectation of how long? So 
what are the metrics and how long do we expect, would you 
expect if you can make an assessment on broad terms to have a 
military presence in Syria?
    Ms. Cafarella. Thank you, sir. And I would just add, I 
think it is vital to sustain pressure on the United States to 
have a clear strategy that includes what does the end of this 
look like, right, when do we come home? I think that is vital 
and I think that is how we avoid Syria becoming the 
Afghanistan, you know, of the future in terms of a U.S. policy 
disaster.
    What I would say is the metrics need to include what the 
anti-ISIS coalition actually already uses, which is that local 
forces are capable of preventing an ISIS breakout success and 
actually providing durable security for the local population 
that includes, you know, law enforcement and that kind of 
thing. That is within reach. The SDF is an incredibly capable 
partner considering that we built it essentially from nothing 
as ISIS had destroyed much of what was there in eastern Syria.
    So I would say establishing those security conditions is 
the first. And then second, establishing a diplomatic 
settlement. Not necessarily of the war overall, because again I 
do not think that is possible in the near term, but we do need 
a diplomatic resolution between Turkey and either the broader 
PKK network that applies to Syria or more limited Turkey and 
the SDF, I think that is possible.
    And the timeframe I would offer, recognizing that 
timeframes are the most difficult thing to predict in war, 
where I would start is 5 years. And I think if the United 
States pursues this for 5 years then has continued to fail to 
generate these options, then it--or these outcomes--then it is 
time to reevaluate. Thank you.
    Mr. Perry. All right. And with the chair's indulgence then, 
I would just say 5 years is longer than I was hoping for, but I 
appreciate your candor.
    One last question, the U.N.'s role--and when you talk about 
power politics, I agree with you in this instance. This is 
absolutely what this is and I do not exclude the U.N. from 
that. We had the adversaries there in Russia and China that are 
not going to be helpful especially in reauthorizing 2533, as I 
understand it.
    How can the U.S. leverage the United Nations, and 
understanding the complete circumstances of the United Nations, 
to further our goals and our outcomes, you know, our described 
outcomes in Syria?
    Mr. Deutch. And thanks, Mr. Perry, and the witness can give 
a brief answer and then we will go to Mr. Malinowski.
    Ms. Cafarella. Brief, I promise. What I would say on the 
timeline is, I am under promising and hoping to under deliver 
here, so I think the goal is less than 5 years, but I would set 
that benchmark.
    In terms of the United Nations, where I would start is by 
applying much more pressure in naming and shaming Russia for 
the malign role that it actually is playing in Syria. I would 
recommend a congressional study of Russian war crimes. I think 
the U.S. should do whatever it can to raise pressure against 
Russia in the United Nations, in Syria, in Ukraine, on 
essentially all of the front lines that Putin is using, Because 
Putin's campaign is also global. He acquires leverage in other 
theaters and then uses it to accomplish other objectives.
    I think actually putting attention to what the Russians are 
actually doing in places like Syria is essential because it 
cuts through the Russian disinformation which is one of 
Russia's most effective tools including at shaping the United 
Nations. We need to do much better and I think that starts by 
simply telling the truth. Thank you.
    Mr. Perry. Thank you, Mr. Chairman.
    Mr. Deutch. Of course.
    Thank you, Ms. Cafarella.
    Thank you, Mr. Perry.
    And, Mr. Malinowski, you are recognized for 5 minutes.
    Mr. Malinowski. Thank you, Mr. Chairman. Thanks, everybody. 
And I want to start by thanking Ms. Cafarella for under 
promising. And I actually think you have made a couple of 
points that I think are extremely wise and that we should think 
about beyond this hearing, particularly that the United States 
needs to be more comfortable embracing achievable goals in 
situations like this.
    I think one of our problems as a country, whether in how we 
address Syria or Afghanistan or Libya, or any of these complex 
situations in that part of the world, is that, you know, being 
Americans, we want to solve the problem. And sometimes if we 
cannot solve the problem in a limited period of time, we walk 
away.
    And we forget that the difference between doing something 
and only 50,000 people die and doing nothing and half a million 
people die, is a lot of death and destruction and suffering 
that is avoidable, even if the best possible outcome with our 
full engagement is still something that is messy and lousy and 
unsatisfying. So I think that is a very good frame for 
approaching what we should have been doing in Syria and what we 
can do going forward.
    I wanted to ask you specifically about Idlib. You and I had 
an exchange, I think, at the last hearing about, I think at the 
time we were talking about a proposal to deploy Patriot 
missiles to Turkey as a means of establishing perhaps even a de 
facto no-fly zone over that part of Syria. Where would you be 
right now in terms of, you know, the most aggressive, realistic 
measures that the United States could take to provide some 
protection with others, given all the complexities, protection 
to the civilian population suffering from air strikes?
    Ms. Cafarella. Yes, thank you for your continued attention 
to the crisis in Idlib. I would say I am essentially in the 
same place as I was a year ago. I would defer to Turkey on what 
specific requests that it has at this time because it has been 
able to strengthen its military position since we last spoke.
    But I do believe that a no-fly zone or the equivalent that 
prevents the Syrian regime from conducting barrel bomb attacks 
and disrupts Russian air is essential in Idlib. I would say 
that it is a difficult proposition to make, I understand, given 
the other global force posture requirements that the United 
States has including with China and with Russia, but in that 
context I think it is vital to recognize that Idlib is actually 
one of the most violent and potentially dangerous front lines 
between NATO and Russia.
    That is what we are talking about here. I do not actually 
think there is a more volatile front line except for possibly 
eastern Ukraine given the Russian buildup that the U.S. could 
use as a pressure point against Putin. And again, that has 
global ramifications. So I would still provide that kind of 
support and I would emphasize again the necessity of the 
humanitarian aid inside of Idlib, which is really the most 
unsustainable element of the crisis in 2021. Thank you.
    Mr. Malinowski. All right. So talk about that a little bit. 
Practically speaking, if we cannot overcome the Russian veto on 
cross-border, what, practically speaking, can and should be 
done?
    Ms. Cafarella. So I have recommended a trilateral deal 
between the United States, the EU, and Turkey to provide 
humanitarian aid independent of the U.N. As has already been 
mentioned in this hearing, U.N. aid is already co-opted by the 
Assad regime, and what Russia is trying to do is give Assad a 
monopoly over that aid. We need to ensure that does not happen 
and we need to ensure that does not happen without punishing 
all of the Syrian civilians outside of the regime called Syria.
    We can do that. The Turks have interest in doing it. I 
think we need to make sure it also does include our local 
partner in the east who the Turks might still want to choke 
off, but I would recommend that trilateral deal as a start.
    Mr. Malinowski. Thank you.
    And then, finally, for, you know, for maybe--I want to 
direct this to Omar. One of the extraordinary things about this 
situation is we are talking about a country, maybe a quarter of 
its population is now living outside of its homeland and that 
is probably going to be the status quo for some time. What can 
be done by the United States, our allies, to invest more in the 
development of that Syrian diaspora, its education, its 
development, so that 1 day it is more ready to come back to 
Syria and contribute to the rebuilding of the country?
    Mr. Alshogre. Thank you, Congressman. I believe education 
is the best thing we can invest in, in people and the Syrian 
people who are, who left the country, and Syrian people who are 
internal displaced like in people who lives in Idlib. That the 
regime will fall. It will take years, but the regime will fall 
and then we would have the responsibility to rebuild our 
Nation. And we cannot rebuild this Nation without having an 
education, without, you know, being supported.
    So what we do at the Task Force is we already started a 
school for orphans and women's center inside Syria where we can 
support this young generation so they can be ready when the 
regime falls so they can rebuild it. And, actually, it is 
people from our council, you know, sponsoring this, this school
    [inaudible]. It is very important. That is why I decided to 
apply to Georgetown University because I knew that at some 
point, I will be part of rebuilding Syria. I cannot just sit 
and blame this country or this country for helping or not 
helping. I need to take personal responsibility and I need 
somebody to help me take this personal responsibility, right.
    So all the flexibilities I get around me, I was being 
supported by a Congressman, which makes it easier to be 
supported by the people who voted for you, right, so all the 
support I'm getting to be educated and to be guided in my life. 
Everybody needs a guide, right. There is some people need those 
guides that would really manage to rebuild their country.
    And we have so many local councils and--there is some 
people are being awesome in creating organizations and councils 
inside and outside Syria, so supporting those councils and 
organizations is so important to create a body that can 
actually lead Syria when the regime fall. Thank you.
    Mr. Malinowski. Thank you. I yield back.
    Mr. Deutch. Thank you, Mr. Malinowski.
    And thanks very much, Mr. Alshogre, for that great answer.
    Mr. Kinzinger, you are recognized for 5 minutes.
    Mr. Kinzinger. Thank you, Mr. Chairman. And, everybody, 
thank you for being here. I think the point that Mr. Malinowski 
made is important which is going into things with realistic 
goals is the challenge, you know, we face and as a self-run 
government where, you know, in order to get, in essence, the 
American people to buy in on any kind of military action or 
foreign policy, you have to have big goals. And I think there 
is a point that we need to understand whether it is a president 
kind of selling the reason, so to speak, for involvement or 
engagement to do it in a realistic way with a realistic 
outcome.
    But I think, you know, another important part to remember 
is we live in a moment where with information, you know, the 
ability, for instance, of terrorists to recruit now besides 
having to meet them, you know, in a dark room and they may be a 
government agent, maybe not, now it can all be done on the 
internet. It is just a different world we live in.
    And I think we all need to come to grips with the fact 
that, you know, we have a choice as Americans, we are either 
going to be involved in the world and that is going to include 
sometimes making some sacrifices, or we are going to choose to 
not be involved in the world and that is going to mean that we 
are in many cases in this new world a victim of things that 
come to our shores. I think of Afghanistan. I am sure we will 
have a hearing on that at some point, I certainly hope, and so 
it is a big challenge.
    But this is an important hearing and, you know, now that we 
are 10 years of the war, I want to reflect real quickly on some 
failed policies of both administrations, the international 
community, and even Congress has really failed to hold Assad 
and his backers accountable. We took too long to pass the 
Caesar Syria Civilian Protection Act and people suffered as a 
result. We did not enforce red lines on the use of chemical 
weapons. People died. Of course, there is new news about that 
today. And it is my hope that the current administration does 
not, you know, repeat the same failed policies regarding Syria 
as the prior two.
    So Omar, it is great to see you. I want to say, you know, 
as I have talked to you in the past, your story is one of the 
most inspiring yet daunting ones to emerge from the Syrian 
conflict. I want to let you know that we will continue to do 
everything in our power to ensure that all those responsible 
for these human rights abuses, from Assad down to the most 
junior prison guard, will answer for their crimes and it is my 
hope that that is sooner than later.
    So let me ask you. Over the past few months, we have seen 
Assad attempt to normalize his relationship with the 
international community. What message do you have for those 
nations looking to provide a lifeline for the regime?
    Mr. Alshogre. This regime has killed not only my father and 
brothers and killed my childhood friends, but it killed 
everybody I knew in my hometown, almost. And it killed the 
dream of so many Syrian children, adults, women, men and 
everyone. And just returning to normalizing the relation with 
the regime means that you accept all the crimes and you support 
all the crimes that the Syrian regime has committed against 
those people, and you deny our rights to democracy and freedom.
    And just by getting back, normalizing the relation with 
them, that means you are one of those who sponsored the death 
of the Syrian people. You will be responsible. When you 
normalize a relationship that means you support, which means 1 
day the same people who are following all of that and 1 day we 
will be asking you questions in court just for supporting this 
death machine. So that is my message. Thank you, Congressman.
    Mr. Kinzinger. Let me ask you just real quick, if you can 
give me a real quick answer because I have a question for Dr. 
Cafarella.
    Are you more likely to become--is a person more likely to 
become a terrorist under a brutal dictator or under a free 
democracy? Omar?
    Mr. Alshogre. Yes. I will tell you from friends I had. I 
have friends who went fighting with ISIS against the Syrian 
regime and guess why, because they lost their parents, their 
friends, their school, their life. You had nothing left, like 
nothing left to live for. The only thing they wanted to do is 
to commit brutalities against a regime that took everything 
from them. They did not care if ISIS was right or wrong. What 
they wanted to do is do what the regime done to them.
    They did not--I had a friend who did not care about ISIS 
values or no values. He just wanted to see the most brutal 
party to engage with to kill the regime because they got 
nothing left to care. They got nothing left to live for. And 
that is important to understand. We cannot let people suffer in 
Syria. That, ultimately, will present those terrorist actors as 
the only, you know, force that is, you know, aiding those 
people or protecting those people or giving them an option to 
fight against the regime, right. Thank you, Congressman.
    Mr. Kinzinger. Thank you.
    Dr. Cafarella, I have some questions I will submit for the 
record, but I thought I would let Omar go because I think that 
is a very important point. So thank you, everybody, for being 
here. And I yield back, Mr. Chairman.
    Mr. Deutch. Well, thank you, Mr. Kinzinger.
    Ms. Manning, you are recognized for 5 minutes.
    Ms. Manning. Thank you, Mr. Chair, for this incredible 
hearing.
    Mr. Alshogre, I want to start for you, with you. I want to 
thank you for your tenacity and your bravery. And you have 
given us the most hopeful and uplifting response when you 
talked about the importance of educating Syrian youth, who are 
now scattered, so that they will be ready to go back and build 
their country when the Assad regime falls someday.
    I wonder if you could talk a little bit more about your 
efforts and tell us is there a network of others who are 
working around the world to educate Syrians, the Syrian 
diaspora, to maintain the culture and the connections so that 
they will be ready to go back and rebuild as you have 
described?
    Mr. Alshogre. Thank you. Thank you, Congresswoman, for your 
question.
    I believe there are so many organizations that can be 
supportive. But as I am a part of the Syrian Emergency Task 
Force, I will tell you more about that what we do.
    Hopefully, you heard something about Rukban Camp, a camp on 
the Syrian-Jordanian-Iraqi border with 10,000 people, majority 
of women and kids. They have got nothing there. It is the 
desert. They have got very limited access to water, and food, 
and all of that.
    And there is big difficulty to access this camp; right? The 
only reason those people are still alive, not attacked, is 
because of the Syrian--is because of the American troops' 
presence in the region. This area the regime won't attack if 
there are American troops nearby.
    So, what we did is we invested in those people. We opened a 
pharmacy. And we tried to give them some education. We have 
online education today. You know, this, this pandemic gave us 
an opportunity to focus on online education. And we have this 
access. So, the only thing we needed to do was to provide 
people with some internet connections so we can actually 
provide them with some, some tools so they can educate 
themself.
    There are many organizations--there is Syrian Campaign, 
there is Syrpla. They are small. You know, I love to support 
those small organizations run by young people, because I think 
we are the future. But you are very important for us, too, but 
we still we are the future. We are the ones that are going to 
lead. And especially in 10 years, 20 years there are so many.
    One of the important things I want to mention is the 
importance of the European countries in saving the Syrian 
people. And I recently came in Sweden, the second biggest 
number of people in Swedish universities are Syrians. That 
makes me proud. It is just awesome, you know.
    The process is still, you know, kind of slow though because 
you are going to stay 1 year, 2 years before you get your 
residence permit to be able to go to school. This is kind of 
important, you cannot just freeze for 2 years. So that can be 
simplified.
    I do not know exactly how it is in the U.S., but I think in 
the U.S. if you manage to find a job, if you manage to sponsor 
yourself, you can educate yourself, which is really good.
    So, I would encourage the U.S. and the U.S. Government to 
invest in those small organizations. Like, the Syrian Task 
Force, our budget is $200,000 a year. And we do work. We have a 
beautiful team, smart people working for free because they care 
about the Syrian people.
    You know, such organizations are actually operating to 
provide education, food, water, advocacy, legal work for 
thousands and thousands of Syrian people. The Rukban Camp, some 
people in Idlib, and people outside, all of that, such 
organizations need to be supported. We cannot just expect them 
to do a great job all the time as they have got no money. 
Right?
    Our operations staff is almost zero. We have nothing except 
when we go, time to go to lunch together. That is all the 
expenses we have. Otherwise we are using all the donations we 
are getting just to support, you know, the people on the ground 
in Syria. Such organizations deserve to be supported.
    Thank you.
    Ms. Manning. Thank you so much. Thank you for your 
enthusiasm and your optimism.
    Ms. Cafarella, I am going to ask you, you talked about all 
the players in the region except for one. Is there a role for 
Israel to play in all of this?
    Ms. Cafarella. Thank you, ma'am.
    So far the Israelis have actually been quite successful 
inside of Syria. And that reflects in part the fact that they 
have established their own reasonable and obtainable goals. 
They are not trying to do too much, but they have stabilized 
the security situation in some important respects on the border 
of the Golan Heights, in part by investing in local 
communities. There was a very successful operation that was 
known as Operation Good Neighbor.
    And the Israelis have also scaled up their military 
pressure on Iran as Iran has tried to go further to build out 
its permanent military infrastructure inside of Syria.
    Those two elements of Israel's role in Syria are important 
and should, in my view, continue. I think asking Israel to do 
more is probably less helpful in the near to medium term 
because the Israeli security interests are currently being 
addressed. And I think what the United States needs to do is to 
now step in and provide support to Israel in ways that augment 
and help to make permanent the effect that the Israelis have 
already been able to create.
    Thank you.
    Ms. Manning. Thank you. And I yield back.
    Mr. Deutch. Thank you very much, Ms. Manning.
    Mr. Mast, you are recognized.
    Mr. Mast. Thank you very much, Mr. Chairman.
    Ms. Cafarella, I want to go back in a minute to something 
that you were talking about about Israel and the IRGC. But, 
before that, I want to touch on something that you had brought 
up in your remarks. And it was about the loyalist populations 
for Assad being uneasy, having unrest, you know, wanting to see 
change beyond sanctions.
    What pressure do you see putting on them beyond that to 
help move that ball?
    Ms. Cafarella. Thank you for the question.
    Where I would start is actually with my recommendation to 
convene a intra-Syrian dialog that includes as much of Syrian 
society as possible. I think it is important not to overState 
how much pressure there actually is internal to the regime. It 
is not going to oust Assad, it is not going to cause a rapid 
destabilization, but it has created a wedge. And I think we 
need to exploit that wedge, both by keeping the pressure on, 
but by inviting elements of the Alawite community and other 
Syrian minorities that have remained loyal to Assad into more 
Track 2 initiatives.
    I think this is a perfect role for the United States to 
play. And it can make a diplomatic settlement of the war 
possible in the longer term by creating the kinds of 
conversations among Syrians that the Russians, the Assad 
regime, and the Iranians are actually preventing from 
occurring.
    Mr. Mast. So, again, ma'am, at the tail end of your last 
comments you spoke a little bit about the IRGC and about 
Israel. And I think it maybe even have been, may have been 
minimized to some degree.
    You talked about how they ramped up, the IRGC ramping up 
their military efforts. I track them in at least 130-plus bases 
across Syria. That is not a minimal presence. And I think most 
of us on this committee realize that.
    And I want to kind of take that and move that over to you, 
Omar, because you have been so forthcoming with your personal 
experiences. And I would ask if you could be forthcoming with 
what you have seen so viscerally as it relates to the IRGC and 
their presence across Syria.
    Mr. Alshogre. If you excuse me, Congressman, I won't have a 
comment about that. Thank you.
    Mr. Mast. Can you say that one more time?
    Mr. Alshogre. I apologize. I won't have a comment about 
that. Thank you.
    Mr. Mast. OK. Well, in that then, Mr. Chairman, I will 
yield back.
    Mr. Deutch. Thank you very much, Mr. Mast.
    I believe Mr. Sherman has joined. Mr. Sherman, you are 
recognized.
    Mr. Sherman. I thank you.
    Our hearts are moved by the people of Syria. We want to 
help. I talked to a number of Syrian American activists who are 
focused on Human Rights Watch, and they have some concerns 
because the Syrian Government has developed a policy and a 
legal framework that allows it to coopt humanitarian assistance 
and use it to fund its own atrocities, to advance its 
interests, to punish those who it perceives as its opponents or 
to benefit its loyalists.
    The Government's regular restrictions on access of 
humanitarian organizations to communities that are in need 
gives the Government more control, allows the Government to 
steal aid, and sell it, and syphon it off.
    Dr. Khatib, how can the U.S. reduce Assad's leverage over 
humanitarian assistance, particularly in Idlib? I have been 
aware that a number of U.S.-based 501(c)(3) organizations, 
charities, are already working on the ground in Syria. And I 
wonder whether they would be a conduit for humanitarian 
assistance that can help the people without going through 
Assad?
    Dr. Khatib. Thank you very much.
    As mentioned by my colleague Ms. Cafarella earlier, there 
is a way to work directly with organizations through charities, 
organizations that are Syrian or international that are not the 
U.N. But at the same time, I think the U.S. should hold the 
U.N. accountable.
    The Assad regime does not only have pressure over where the 
U.N. directs its aid, sometimes the Assad regime even 
influences recruitment through venues and agencies in Syria so 
that the people responsible are selected by the Syrian regime. 
And the regime basically sometimes refuses to give U.N. staff 
permits to work in Syria if it does not approve of their 
presence and work.
    And, therefore, I think when it comes to aid there are two 
separate tracks: one is working on a micro level to get aid to 
cross through Turkey into Syria; but at the same, the issue of 
U.N. accountability is very important.
    Thank you.
    Mr. Sherman. Moving toward the U.N. and its 
unaccountability, U.N. Security Council Resolution 2254 remains 
the cornerstone of the political process in Syria. Under its 
authority, the U.N. established the Syrian Constitutional 
Committee in 2019. We hope that is a step forward.
    It includes the Syrian civil society groups, opposition 
groups, government officials, neutral legal observers. But the 
Assad regime has essentially ignored and obstructed the U.N. 
process and likely believes that it is in power.
    Apart from applying more pressure on the regime, what can 
the U.S. do to strengthen the Geneva process?
    I wonder which of our witnesses is most anxious to comment 
on that question?
    Dr. Khatib. If I may.
    Mr. Sherman. Go ahead.
    Dr. Khatib. I would like to, sir. Thank you. I wrote about 
this in my written statement as well.
    Unfortunately, the regime and Russia view the U.N.-led 
peace process as going nowhere. They are not taking it 
seriously. They are deliberately stalling it. They want to show 
that this is all a waste of time and that, ultimately, the 
world should normalize relations with Assad. That is why they 
want it to fail.
    So, it is very important not to let this die. However, I 
stress that in my view we cannot rely on the U.N. peace process 
to kick-start peace in Syria, even though it is meant to be a 
peace process. I think the issue of Syria is now also not in 
the hands of Syrians, unfortunately, as a first step.
    It has become an international conflict. It has allowed 
Russia to present itself as a new emerging superpower once 
more. And that is why I advocate that the United States start 
bilateral negotiations with Russia on Syria.
    There are certain things, some concessions that the U.S. 
can offer Russia that would not hurt U.S. national interests, 
such as having Russia retain a naval base on the Mediterranean, 
or having Russia retain a degree of political influence----
    Mr. Sherman. Let me see if we have----
    Ms. Khatib [continuing]. In Syria.
    Mr. Sherman [continuing]. Time to have Mr. Alshogre also 
comment on that question.
    Mr. Alshogre. I believe, I believe in the importance of the 
U.N.'s role in the Syrian issue. There was a big purpose of 
creating the United Nations, to make the world safer, to make 
the world better. And right now I believe that the erratic 
system or the wrong leadership maybe in the U.N. is affecting 
how are they doing it.
    The Syrian people need to be supported on the ground. And 
that can be, that can be done in multiple ways. Now we notice 
that the aid going from the U.N. through the Syrian regime, 
through the Syrian regime that happened many times. And the 
regime, you know, is seizing people, killing people, cannot 
actually be giving the aid to, to give back to the people; 
right?
    So, if those people are seized to be starved by the Syrian 
regime, we cannot give aid to the Syrian regime. That needs to 
be changed. Those people on the ground in Syria need to be, 
need to be supported directly to them through their local 
organizations.
    Thank you for that. And I wonder, I have faced some 
technical issues. I did not hear----
    Mr. Sherman. I do want to, my time is expiring and I just 
want to add one final comment.
    And that is we have to remember the Assad regime exists 
because Iran supported it, particularly at the beginning of 
this conflict. And that when we look at hundreds of thousands 
of dead Syrians we know that the arrow points to Tehran.
    And with that, I yield back.
    Mr. Deutch. Thank you very much, Mr. Sherman.
    Mr. Burchett, you are recognized for 5 minutes.
    Mr. Burchett. Thanks, Chairman Deutch. I appreciate the 
opportunity here.
    What are the operational
    [inaudible.]
    Mr. Deutch. Mr. Burchett, I think you muted yourself.
    Mr. Burchett. Actually, I unmuted myself and I think you 
all muted me. So, sorry for crashing, Mr. Chairman.
    I am going to start over.
    What are the operational capabilities of the Syrian 
Government forces? And does Assad enjoy the support of the 
soldiers under his command? Or is he completely reliant on the 
Russians and Iranians for support?
    Ms. Cafarella. I am happy to offer some comments on that, 
sir.
    Mr. Burchett. Yes.
    Ms. Cafarella. Assad's ability to control elements, 
surviving elements of the Syrian Arab Army is actually quite 
small. There are some Syrian units that remain coherent and 
that do remain loyal to Assad. However, many elements of the 
pro-regime forces that exist on the battlefield and that are 
most decisive are either stood up by Russia and Iran, or have 
been coopted by Russia and Iran over the course of this war.
    So, the amount of combat power that Assad can independently 
generate is actually quite low. Now, that does not mean that 
Syrian forces, unfortunately, aren't loyal to Assad. He remains 
a focus personality and has convinced remaining elements of his 
force that he is their only option. However, I do think it is 
important to keep in perspective, as your question so astutely 
does, what Assad can independently do versus what his backers 
make possible.
    Thank you.
    Mr. Burchett. What is the status of the U.N.-backed 
Constitutional Committee? And are the elections and the 
elections in Syria--I know Mr. Chairman had mentioned that 
earlier, but I wonder if somebody could further delve into 
that?
    Dr. Khatib. I would be happy to, sir.
    The Constitutional Committee had five rounds of talks. 
There is going to be a sixth round. The U.N. envoy expressed 
frustration with the way the process is going. And this is, 
again, being so because of the behavior of the Assad regime, 
that it is not cooperating, it is using it to just waste time, 
so that anything created with the U.N. peace process is dead, 
unfortunately.
    So, unless there is a significant change in the work plan, 
it is not likely that the Constitutional Committee is going to 
come up with a new constitution in the near future.
    When it comes to elections in Syria, Assad is planning on 
being reelected in summer of 2021 when Presidential elections 
happen. So far for Russia, it regards itself as winning in 
Syria and, therefore, is not seeing an alternative to Assad. 
So, therefore, it will be happy if he is reelected. However, I 
stress that Russia will be willing to sacrifice Assad if it 
sees that there is a compromise to be done internationally.
    And that is why the weaker Assad is, the more Russia 
benefits because it can influence what happens in Syria in a 
greater capacity. But this also gives, I think, the United 
States in particular a diplomatic opportunity so that it can 
influence Russia to then take the U.N. peace process seriously.
    I stress the U.N. peace process is important, should 
continue, but it is not effective because Russia is not taking 
it seriously. So, we need to pressure Russia and negotiate with 
it at the same time.
    Thank you.
    Mr. Burchett. All right. Anybody else on that?
    Ms. Cafarella. If there is time, I would like to comment.
    Mr. Burchett. Go ahead.
    Ms. Cafarella. Thank you, sir.
    So, I agree with what my colleague just briefed in terms of 
the fact that, unfortunately, the U.N.-backed process is 
essentially right now dead in the water. The U.S. does need to 
maintain the U.N. as the legitimate vehicle for a diplomatic 
settlement. And there will need to be a Russian role in that 
future settlement.
    What I would offer is that it is vital that the United 
States ensure that those negotiations do not happen on Putin's 
terms. Putin does not seek to come to the negotiating table. He 
seeks to force us to come to his table, which will be rigged, 
if not to keep Assad the man in power, to keep the system in 
power and to safeguard Russian interests which, again, in Syria 
are actually part of his global military leverage.
    I think the United States needs to consider what additional 
leverage we need to place on Russia rather than what 
concessions we can offer him. And I think the United States 
needs to reiterate the basic components of what a negotiated 
settlement would require, which Syrians have often in the past 
included as a condition for the withdrawal of foreign forces 
which, of course, Russia is not going to be willing to do. But 
I think it is important, actually, not to just cede at the 
outset of negotiations, we need to use it as leverage.
    Thank you.
    Mr. Burchett. What, realistically, what does Syria look 
like in 5 years if we continue down this path? And what needs 
to be ideally what you all want? In 5 years, what would it look 
like?
    Mr. Deutch. And the witnesses can answer briefly, although 
time is up.
    Mr. Burchett. I am sorry, Mr. Chairman.
    Mr. Deutch. That is OK. If you want to direct that perhaps, 
Mr. Burchett.
    Mr. Burchett. Well, why do not you tell me who would be the 
best one to answer that, Mr. Chairman.
    Mr. Deutch. I will leave it up to the witnesses then.
    Mr. Burchett. All right. It is the first one that pops on, 
I will listen to that and that will be it. Thank you. Sorry, 
Mr. Chairman.
    Mr. Deutch. No, that is OK. Thank you, Mr. Burchett.
    Ms. Cafarella. All right. I will volunteer as tribute.
    It is a really impossible question to answer. But I would 
say 5 years hence where Syria will likely be is still a war 
zone that is contributing more fighters to international wars. 
I mention that because both the Turks and the Russians are 
mobilizing Syrian mercenaries to go fight in Libya, Nagorno-
Karabakh, Venezuela, and potentially other theaters.
    Syria will continue to export more violence the longer this 
war continues.
    Now, where I would like us to be in 5 years, if the U.S. 
recommits to engagement, is that we have stabilized the 
northeast, we have realigned with Turkey, and there is 
essentially an arc from Idlib up to the north into the 
southeast of a zone of Syria that is beginning to recover, that 
can offer an alternative over the long term to the brutality 
and violence of the Assad regime.
    Mr. Burchett. Thank you, ma'am.
    Thank you, Mr. Chairman.
    Mr. Deutch. Thank you very much, Mr. Burchett. That is an 
important question and response which all gets to the reason 
that we are holding this hearing. So, I appreciate that very 
much.
    Mr. Vargas. Mr. Vargas, you are recognized for 5 minutes.
    Mr. Vargas. Thank you very much.
    The first thing I would like to know is how did you mute, 
Mr. Burchett? Mr. Chairman, I have been trying to do that for a 
long time. If the technical person could figure and did that, 
just let me know, I would love to know that.
    Sorry, Tim.
    But in all truthfulness, thank you very much for this. This 
has been a great hearing, and I appreciate it very much.
    Back in October 2019, I recall a friend of mine who had 
served, from San Diego, calling me being completely outraged 
because of the decision that the Trump administration had made 
to remove our forces from Syria and allow the Turks basically 
to come in and attack the Kurds.
    And I remember him saying that the Kurds have no friends 
but the mountains, which is an old term that is used.
    And I do also recall a few months later that the Secretary 
of Defense General Mattis also resigned, and this was one of 
the principle reasons--there were others--but because of this. 
And, again, I thought it was tragic myself.
    I do think that we need to be involved. I do think it is 
important for us to be there. I haven't disagreed much with 
others.
    But I would say this, not in defense of President Trump--I 
would never do that, never defend him--but I would say this, 
and he did say this: ``I do not want to stay there for the next 
40 years,'' Trump said. I am not going to do anything--``It is 
not going to do anything.'' Excuse me. ``I campaigned on the 
fact that I was going to bring our soldiers home, and bring 
them home as rapidly as possible.''
    ``Part of keeping that promise,'' Trump said, ``is not 
thrusting U.S. forces to even more conflicts that have no end 
in sight.''
    We interject ourselves into wars and we interject ourselves 
into tribal wars, and revolutions, and all these things that 
are very that kind of thing that you settle the way you would 
like to see settled. It just does not, it just does not work 
that way. And it is time to come back home.
    Now, I think he said that because that was the sentiment of 
a lot of Americans, just to be frank. I think a lot of 
Americans feel, you know, why are we involved in these endless 
wars, and why are we involved in places that most Americans 
couldn't point out on a map if they had to?
    I do not look at the world that way. I think it is very 
important if we are not involved there that we are going to 
have problems. So, for example, when people now are complaining 
about all the issues at the border, right, we are having all 
these issues. Although I live at the border in San Diego, it is 
one of the safest places in the United States. We all should 
live in San Diego; it is very nice. But that being said, it is 
because of all the problems that are going on in Central 
America.
    Europe, too, with all the issues that they are having, and 
stuff going on in Syria.
    So, even apart from this self-interest, I think it is the 
right thing to do. But there is also self-interest for our 
country.
    So, what really should we be doing? How should we be 
involved so this is not a 40-year war?
    I guess I will ask--well, actually, who wants to take a 
shot at that? I do not want to prejudice anybody like the 
chairman did. I thought that was very judicious.
    Mr. Alshogre. I can take a shot.
    Mr. Vargas. Yes, go ahead.
    Mr. Alshogre. Yes.
    So, I think the consequences of the U.S. not being involved 
are dangerous because when the U.S. does not get involved it 
gets Russia involved. Right? Look at the Syrian case. We did 
not get the U.S. really involved enough in that case, and we 
got Russia. And so far we have more than half million people 
dead.
    And, the Russian support to the regime in Syria created the 
brutality, that actually created the body of the extremist, you 
know, actors in Syria like ISIS. We just mentioned 10 minutes 
later before that, you know, the more brutality the people goes 
through, the more, you know, extremist parties will show up 
because they will, they will be feeding on the fear, on the 
brutality the people went through.
    So, we have to think about the consequences of being 
involved or not. Now I am talking like I am an American, but 
you know, you know what I am trying to say is that the long-
term consequences of not being involved are going to be 
dangerous because let's imagine that we do not get involved 
anywhere as the United States, we do not get involved anywhere. 
And the extremism, you know, will grow up. And then that will 
be endangering national security, that will be a national 
security issue for the U.S. anyway. The U.S. at some point 
needs to be involved again.
    So, stepping out of this, the involvement of these nations, 
you know, we won't be able to survive being out for a long 
time. We have to go back again for our national security; 
right?
    And that's that, so.
    Mr. Vargas. I agree. And one of the things I think you said 
that is important, I think that was said well in Les 
Miserables: now we see each other plain when it comes to 
Russia. I think in the last Administration we did not see each 
other plain. We did not see Russia for what it was. And now we 
do. And I think that is important.
    Now I want to say that, not for everybody, like I say most 
of my Republican colleagues saw Russia plain, but I do not 
think the Administration quite did.
    So, again, thank you. My time is up, so I won't ask another 
question. I did have more questions. But I appreciate it. Thank 
you very much.
    Thank you, Mr. Chairman.
    Mr. Deutch. Thank you, Mr. Vargas.
    Mr. Steube, you are recognized for 5 minutes.
    Mr. Steube. Thank you, Mr. Chairman. My questions are for 
Ms. Cafarella.
    Secretary of Treasury Janet Yellen has acknowledged that 
she plans to pursue a general special drawing rights allocation 
at the IMF that would provide billions of dollars to genocidal 
regimes and State sponsors of terrorism. Under this plan, 
China, Russia, Venezuela, Iran, and Syria could receive 70 
billion from the IMF.
    In particular, under Syria's quota in the IMF, the Assad 
regime would receive at least $390 million in the upcoming 
allocation. A recent guidance issued by Treasury even admits 
that ``some countries whose policies the United States opposes 
will receive an SDR allocation.''
    Do you believe the Assad regime in Syria will use such 
funds for COVID-19 relief, or do you think such aid will 
instead be used to prop up his brutal regime?
    Ms. Cafarella. Thank you, sir, for the question and for the 
opportunity to answer: categorically, no. The U.S. should not 
provide this aid to the Assad regime which will be used to 
repay the war criminals that have prosecuted this war. And it 
will be used by Assad in an attempt to shore up his position, 
as my colleague already mentioned, ahead of what will be a sham 
Presidential election this summer in Syria.
    Thank you.
    Mr. Steube. Well, and I just do not understand why we are 
even considering doing this. It to me does not make any sense.
    Is there anything else that you think that this money would 
go to? And do you have any idea?
    Ms. Cafarella. Well, I think the intent behind the money 
is, of course, to provide COVID-19 relief. But the trap the 
United States is in in Syria is that the Assad regime is deeply 
corrupt and lies. And they will not use the aid for whatever 
they promise to use the aid to do.
    And, again, as my colleagues have already rightly outlined, 
Assad has even managed to acquire leverage over elements of the 
U.N. process that allocates that aid and that delivers it.
    So, while I can understand the broad humanitarian 
principles that sometimes animates these proposals, the reality 
that we are in in Syria is that this money will reward a war 
criminal. I wish that weren't true. I wish he wasn't able to 
hold his own population hostage. But that is why this war has 
been doing on for a decade, because he does it so well, and 
because the U.S. has fallen into this trap before.
    Thank you.
    Mr. Steube. And I agree with you.
    Switching gears a little bit, as of this year, ongoing 
policy challenges include countering extremist groups linked to 
al-Qaeda and responding to the threat posed by ISIS remnants 
and detainees. Iran, in its regional proxy military forces, 
maintain and, arguably, have expanded their influence in the 
region where they have increasingly come into direct conflict 
with U.S. forces and allies. Particularly, Iran has bolstered 
the Assad Government in Syria in providing support to the 
Houthi rebel movement in Yemen where recently Secretary Blinken 
delisted the Houthis as a foreign terrorist organization.
    Where are the points of tension between Assad and Iran? And 
where do you think their interests diverge?
    Ms. Cafarella. Thank you, sir. It is a difficult question 
because Assad is buried in deep with the Iranians. Right now 
their interests do not, in my view, meaningfully diverge.
    At the tactical level, sometimes there is competition 
between Syrian units and the Iranians. And the Iranians 
certainly subvert Assad regime's sovereignty within Syria 
because they operate outside of his control. However, Assad is 
perfectly capable and, it seems, comfortable navigating that 
dynamic. He needs the military's support. He is actually 
aligned with them on a number of regional issues.
    I think the question of Israel and how imminent regime 
desires are, for example, to reclaim the Syrian Golan Heights, 
or to conduct that kind of escalation, is probably the biggest 
point of potential diversion. But what we have actually watched 
is Assad enable Iran's buildup on the Golan. So, I would offer 
even if that is a diversion, an intended priority on the 
ground, it hasn't actually led to that significant of a gap yet 
between the two.
    Thank you.
    Mr. Steube. Is there a path to ending Iran's military 
presence in Syria? And if so, what would that look like?
    Ms. Cafarella. Yes, sir. I would say ending Iranian 
military presence in Syria is a long-term goal. It should be a 
focus of a future diplomatic resolution of the conflict. But I 
think in the near term there is a lot the U.S. can do to first 
stop the build-out of Iranian influence, and then set the 
conditions to roll it back over time.
    In my written testimony, I discuss one of Iran's elements 
in Syria that has gone almost fully unaddressed, which is its 
social, cultural, and economic outreach at very local levels, 
including in Sunni Arab majority areas along the Euphrates 
River Valley that could position the Iranians to have long-term 
and deep roots in Syria that could actually remain, even if 
Iranian military forces withdraw.
    The U.S. needs to combat that. I recommend starting by 
actually, again, reinforcing the SDF, which is the only other 
reasonable job provider and security provider in the area.
    Thank you.
    Mr. Steube. Thank you. And thank you for being here today.
    Mr. Chairman, I yield back.
    Mr. Deutch. Thank you, Mr. Steube.
    Mr. Keating, you are recognized.
    Mr. Keating. Thank you, Mr. Chairman. Thank you for having 
the hearing.
    Omar, our thoughts are also with the losses you suffered 
and everything you have gone through.
    My question is this: announced today were sanctions against 
Russia. Included among those is sanctioning Yevgeny Prigozhin. 
You know, what came front and center with that is his 
involvement with the Internet Research Agency. But he is also a 
principal as well with the Wagner Group.
    Now, the Wagner group has been involved in, I think, using 
the COVID pandemic, you know, to their advantage. It is 
purportedly distributing in the Syria region aid in terms of 
PPE, protective equipment, and vaccines.
    To what extent, how do you view that kind of activity by, 
you know, this front, shadowy mercenary group sponsored by 
Russia engaging in these kinds of activities? What should we be 
looking out for?
    Ms. Cafarella. So, I am happy to offer a comment, sir.
    Mr. Keating. Yes.
    Ms. Cafarella. The Wagner Group, as you rightly noted, is a 
key tool of the Kremlin inside of Syria and the broader Middle 
East. Right now they are involved in the mobilization of Syrian 
mercenary fighters to fight, as I mentioned previously, in 
Libya, at the time in Nagorno-Karabakh, in Venezuela, and now 
potentially elsewhere.
    Wagner is also involved in Russia's efforts to extra oil 
revenues from Syria to fund the campaign of air strikes, for 
example, that the Russians continue to conduct against Syrian 
civilians. And there are some indications that the Wagner Group 
has also participated in front line fighting, which makes them 
directly responsible for Syrian lives.
    I think it is essential that the United States continue to 
put pressure on the Wagner Group and its enablers. I think that 
should include sanctions on Prigozhin, as has happened, 
potentially on other elements associated with Wagner, and 
should also make an effort to highlight and to disclose the 
role that this organization is playing in order to deny Putin 
the plausible deniability that he seeks.
    Thank you.
    Mr. Keating. Thank you.
    Certainly, you know, those sanctions were warranted with 
his activities, not just in Europe, and Russia, and Ukraine, 
but also in expanding global footprint as well.
    Just a question about any thoughts you might have. You 
know, there's 2,000 foreign fighters being detained right now, 
you know, associated with ISIS. There's 12,000 militants that 
are there. There are 60,000 associated family members, many 
women and children. And some of them are starting to be--
[inaudible.]
    In any case, let's hear what you have to say about that, if 
you could, how that should be conducted, what we should be 
watching out for, how it has occurred so far.
    Ms. Cafarella. Sorry, sir, I lost your audio for a moment, 
but I believe that question was directed at me, so I will offer 
a comment.
    Mr. Keating. Go ahead.
    Ms. Cafarella. The SDF is a non-State actor that is not 
capable of performing the scope and scale of the detainee 
operations that are necessary to handle this ISIS detainee 
population, nor to deal with the very complex and, actually, 
dangerous situation in the awful camps.
    Now, I would offer U.S. support has actually enabled the 
SDF to be surprisingly effective in managing this at the level 
that they currently are. They actually recently conducted a 
raid inside al-Hol, which is a very risky enterprise. But that 
was necessary to root out a number of actual ISIS elements that 
were operating within the camp, including, if I am not 
mistaken, a recruiter and some financiers. And they found ISIS 
tunnels. So, the situation in al-Hol is both a grave 
humanitarian crisis and a huge security requirement. The U.S. 
has addressed both of those issues.
    We should be leading an international effort to provide 
humanitarian aid at al-Hol that is enabled by a security 
platform that can ensure that ISIS actually is not able to 
operate freely within the camp, and that the humanitarian aid 
organizations have the kind of security conditions necessary to 
deliver their services.
    Thank you.
    Mr. Keating. Well, thank you. My time is waning, so I will 
yield back, Mr. Chairman.
    Mr. Deutch. Thanks very much, Mr. Keating.
    Representative Jackson is next.
    Mr. Jackson. Thank you, Mr. Chairman, I appreciate it. And 
thank you to the witnesses for your testimony and your answers 
so far.
    The United States taxpayers have contributed almost $13 
billion to this crisis over the last 10 years, yet the Syrian 
citizens still face displacement, starvation, and violence, as 
we have been discussing. The United States faces three main 
threats from Syria:
    The first, the lingering threat from terrorism, including 
ISIS and groups like the al-Qaeda;
    Second, the political and ethnic divisions streaming from 
civil war that is now in its tenth year;
    Last, we face the problems from the involvement of foreign 
bad actors, particularly Iran and Russia.
    My concern is toward this last of the three problems, and I 
will focus my question on this. Specifically, I am concerned 
about the undue influence that China and Russia hold in this 
crisis, particularly when discussing this conflict in the U.N. 
Security Council.
    Ms. Cafarella, I think I will direct this at you, if you do 
not mind. Can you discuss how Russia takes advantage of the 
U.N. system and its permanent seat on the U.N. Security Council 
to help the Assad regime and inflict suffering of civilians?
    Ms. Cafarella. Yes. Thank you for your question, sir. It is 
very important.
    The Russians began manipulating the U.N. by essentially 
leveraging their veto power in order to ensure the 
international community could not apply greater pressure on 
Assad. But what the Russians have started to do is to try to 
repurpose U.N. processes to actually actively enable Assad's 
consolidation. That is what we are seeing the Russians do while 
they try to shape the diplomatic process and to change its 
terms to ones that will essentially preserve the regime.
    And we are also watching the Russians do that now with 
humanitarian aid. As I referenced earlier, the Russians are 
trying to give Assad a monopoly on humanitarian aid in Syria. 
And the Russians are using the U.N. to do that.
    Finally, the Russians are trying to discredit sanctions as 
a tool of American Statecraft on grounds that they are inhumane 
or illegal, which is flatly untrue. But the Russians are also 
using the U.N. as a vehicle to do that through, among other 
things, Putin's demand for a U.N. summit at which he intends to 
address the sanctions issue.
    The United States definitely needs to push back on this. I 
think a component is, as I mentioned earlier, highlighting the 
role Russia is actually playing in Syria and breaking through 
the disinformation that it uses to manipulate actors, including 
too often European States, to back a Russian proposal that 
amounts to concessions to Assad. But, I think the U.S. should 
also be judicious in what we expect to achieve via the U.N. 
Security Council, recognizing that we are not likely to get any 
resolution, for example, on a diplomatic settlement, and we may 
not even get the resolution we seek on humanitarian aid.
    We need to block the Russians and then we need to do what 
we need to do outside the U.N. to reestablish leverage in the 
theater that, hopefully, over time can help us revalidate the 
U.N. as a legitimate, you know, entity inside of Syria. Because 
one of my fears is that we talk about Assad radicalizing 
Syrians, and Russia and Iran radicalizing Syrians, we do not 
often talk about the fact that the U.N. losing legitimacy is 
also a source of disillusionment and potential radicalization 
for populations that should be able to trust the United 
Nations, at the minimum on humanitarian grounds.
    Thank you.
    Mr. Jackson. Thank you. I appreciate that. I agree with you 
100 percent. Thank you.
    I have on more quick question and I will just direct this 
to you as well.
    The Trump administration identified the withdrawal of 
Iranian-commanded forces as a main policy goal in Syria. As the 
Biden Administration develops their agenda for Syria, I hope 
they are going to continue the same stance.
    For the committee awareness, could you briefly describe 
Iran's military, political, and cultural entrenchment in Syria? 
How deep do you think their reach and their control currently 
is?
    Ms. Cafarella. Yes. Thank you for the question.
    The first element of Iran's presence in Syria is its 
physical military presence that includes the military bases and 
other infrastructure the Iranian Revolutionary Guard's Quds 
Force uses, in part to send weapons and other--and missiles and 
other weapon systems to Hezbollah in, but also to fuel the 
Assad regime's war effort.
    But it also includes a deeper layer that I am glad to have 
the opportunity to speak about for this, which is Iran's 
cultural, economic, and social outreach. That occurs through a 
number of local charities and Iranian-funded organizations, 
including, for example, the Lebanese Hezbollah Jihad al-Bina 
organization which provides, you know, charitable works for 
Hezbollah soft power inside of Lebanon. It is also operating 
inside of Syria.
    I think it is important not to overState how deep those 
social roots are now. Right? It's not like Syrian populations 
that are desperate for basic salaries are fully card-carrying 
members of, you know, Iran's regional axis resistance simply 
due to this outreach. But this is one of those steps where if 
we give Iran a decade to continue to try to root itself into 
local communities inside of Syria, that picture may look very 
different.
    I say similar things about the risk of al-Qaeda, you know, 
soft power outreach. That people do not believe this ideology, 
but give them a decade of violence and it may actually start to 
sink in.
    Thank you.
    Mr. Jackson. Thank you. I appreciate that answer. And I see 
my time is up.
    Thank you, Mr. Chairman.
    Mr. Alshogre. Chairman, if you would allow, Chairman, if 
you would please allow me to----
    Mr. Deutch. You may.
    Mr. Alshogre [continuing]. Reply to, to Congressman Mast, 
as I missed because of technical difficulties.
    But regarding Iran, as was the last thing to be mentioned, 
Iran is, like, Iranians are already buying houses in Damascus. 
They are taking over places. In addition to recent news we got 
from the ground that Iranians are being, Iranian, you know, 
officers being responsible for some prisoners. They will trade 
prisoners.
    Like, I was bought out for just $20,000. My mom invested 
someone to get me out of prison. And they are now being 
responsible in some parts of Damascus, some prisons, to be the 
ones responsible to sell those prisoners. So, prisoners are an 
economy.
    More than that, when I was in Branch 215, a prison, one of 
the most brutal prisons in Syrian, I was numbering the dead 
bodies. And among the dead bodies I would see one they used 
screw drivers to draw the Iranian flag on their bodies. They 
will use whatever hard machines to draw the Iranian flag on 
their bodies.
    So, the Iranian forces committed brutal crimes against the 
Syrian people. They actually, you can feel like they were 
enjoying doing that. Even in the massacre in May, May 2013, 
when they killed my family, they actually, they were there. So, 
the regime was there, supported by the Iranian militias.
    So, that is what I wanted to say. I am sorry, again, for 
Congressman Mast for missing his question.
    Mr. Deutch. No, appreciate it very much, Mr. Alshogre. And 
thanks, Representative Jackson.
    We will now go to Representative Schneider. You are 
recognized for 5 minutes.
    Mr. Schneider. Thank you, Chairman Deutch. And I want to 
thank you for having this hearing. And I want to thank the 
witnesses for spending time with us.
    In particular, Mr. Alshogre, I want to thank you for 
sharing your story, it is a story full of grief, and 
illustrates the atrocities of the Assad regime. But it is also 
a story that is full of hope and inspiration. And we are very 
grateful to that.
    I remember, I did not make the connection when you were 
accepted to Georgetown, the video posted on You Tube was an 
inspiration to me back in November. And it is an honor to have 
you here now. And we are so glad to have you at Georgetown and 
look forward to great things for you.
    In my time there are three things I want to touch on, and I 
will be brief, but the humanitarian crisis; holding Assad and 
his regime accountable, making sure that they do not gain 
legitimacy again; and addressing the Iranian influence.
    In July of last year, the U.N. Security Council 
reauthorized for humanitarian assistance in Syria for a year. 
Unfortunately, Russia and China vetoed and restricted it for a 
single crossing point. This single crossing point severely 
restricted aid flows into the remaining pockets of Syrian 
civilian and non-regime held areas.
    Similar action is up for reauthorization this July. And we 
are hearing that Russia is again considering a veto, rightfully 
hoping that the threat of a veto will pressure the U.S. to make 
concessions in other areas.
    Dr. Khatib, how has the reduction to a single crossing 
point impacted humanitarian assistance? What do you think the 
U.S. should be doing? And how do you suggest we hold the U.N. 
accountable?
    Dr. Khatib. Thank you. The U.N. itself estimates that 75 
percent of Syrians in northwest Syria depend on U.N. aid. So we 
can only imagine the humanitarian catastrophe that would happen 
if that cross-border authorization is not renewed.
    The U.S. has to exert pressure on Russia at the same time 
it negotiates with it to get it to cooperate. The reason why 
Russia is increasing the dose of its pressure is because it 
feels it can get away with it. And that is why it is important 
not to let Russia get comfortable in Syria.
    One leverage the U.S. has over Russia is that Russia is 
hoping that the world would normalize relations with the Assad 
regime and money would flow into Syria for reconstruction, and 
Russia would be set to benefit from that.
    Increasing sanctions on the Assad regime and anyone 
associated with it, whether Syrian or not, would prevent 
countries from normalizing with the Assad regime, even in a de 
facto, if not formal, manner.
    One of the issues that we can also do is pay attention to 
how the Syrian conflict is really part of a regional picture. 
It's not just about Syria. It is also about regional 
interventions by Iran. It is also about what is happening in 
Iraq.
    The conflicts are actually quite linked, including 
economically. And one example I will give you here is suitcases 
full of cash are being flown from Baghdad into Beirut Airport 
to fund Hezbollah. And Hezbollah uses that money to fund its 
own operations in Syria.
    And, therefore, I think when it comes to engaging with 
Russia to pressure it, using the economic leverage is 
important, but at the same time addressing Russia's and Iran's 
regional roles is also very important, which means negotiating 
beyond Syria, not just on Syria.
    Thank you.
    Mr. Schneider. Absolutely. And thank you.
    And let me turn to Mr. Alshogre to address this a little 
bit.
    Germany has successfully used the thought of universal 
jurisdiction to sentence an intelligence officer, Syrian 
intelligence officer to four-and-a-half years in prison for 
aiding and abetting crimes against humanity.
    And there lessons that you think the U.S. can draw from 
this, what other countries are doing to investigate the Assad 
regime? How can we better promote accountability?
    Mr. Alshogre. I am glad, I am glad to receive this 
question. I am glad to highlight it, that those who committed 
crimes are actually being followed. Those who tortured me in 
prison are now, some of them are captured and will be, you 
know, are being questioned or will be questioned. That is 
really important for the survivors. That is important to Syrian 
mothers, parents who while their kids were being tortured, died 
in torture, the families of the people in the seizure photos. 
It is very important to everyone.
    So, we have five legal prosecutions. We have cases, legal 
cases. We have one in Germany and one person is sentenced now. 
We had one in Swedish--in Sweden. We had one in Norway, and 
Spain, and France. All of them are very important. We need one 
in the U.S. It is very important.
    We cannot ignore the power, and the knowledge, and the 
experience the U.S. has in this field. So it is important we 
raise. And we try to work with that with the partners that 
these cases matter for in the U.S. And, hopefully, soon 
something good can be announced about legal cases, criminal 
cases, civil cases against the Syrian regime in Syria.
    Because you have it is not just caring about the Syrian 
people, it is caring about the American people because you have 
Americans who died under torture in Syria. You have Layla 
Shwekani. You have Americans who are being tortured in Syrian 
detention centers in Syria. You have Austin Tice, Majd 
Kamalmaz, and other Americans who are not, their names are not 
public yet. So, it is important we do that.
    And when the U.S. thinks about it, it is important to think 
about their own citizens as well, not only the Syrian people. 
It will be easier to find evidence regarding the death, the 
torture of the Syrian people.
    And, hopefully, you managed to watch our, the Syrian Task 
Force interview on 60 Minutes talking about this legal 
prosecution that is supported by our colleague Mouaz Moustafa 
and Ambassador Stephen Rapp which will give more detail about 
that, and the importance and the role the U.S. can play in 
legal prosecution.
    Thank you very much for this amazing question.
    Mr. Schneider. Thank you. And my time has now expired. I 
yield back. And thank you, Mr. Chairman, for this hearing. And 
I look forward to discussing the issues with Iran later on.
    Mr. Deutch. Thank you very much, Mr. Schneider.
    And I will now yield myself 5 minutes or so for some 
questions.
    Dr. Khatib, I want to ask about Iranian influence, Iran and 
their proxies in Syria, and Turkey's view of that influence. 
And we have talked about Russia a lot. Are there ways we can 
coordinate more with Turkey on a common interest in diminishing 
Iranian influence in Syria?
    Let me start with that.
    Dr. Khatib. Thank you.
    For Turkey, early on Iran was a direct competitor in many 
ways in Syria because Turkey was seeking the removal of the 
Assad regime when Iran was supporting the Assad regime. 
However, things have changed over the years because Turkey's 
main focus in Syria remains the Kurdish issue rather than the 
removal of the Assad regime.
    And that is why I think to get Turkey to cooperate more, 
whether on Iran or any other issue, when it comes to Syria what 
needs to happen is governance in northeast Syria that is 
currently Kurdish dominated needs to become more inclusive, and 
accountable, and transparent, and effective. Because this is 
what is going to lessen the tension between the United States 
and Turkey.
    Turkey will be able to cooperate more if it feels reassured 
that there is not going to be a Kurdish-led autonomous region 
at its border in Syria, which is its main concern because it 
sees that as being an extension of PKK activity that will 
threaten its national security. If it feels reassured on that 
front, I think further down the line there can be talks between 
Turkey and the PKK. But to get Turkey to cooperate on Iran, we 
need to reassure Turkey about the Kurdish issue.
    That does not mean, of course, abandoning the SDF, it means 
making the autonomous administration of the northeast more 
accountable, transparent, and inclusive of all ethnic groups, 
and working to lessen tension between Arabs and Kurds more 
generally in that area.
    Thank you.
    Mr. Deutch. Thank you, Dr. Khatib.
    Ms. Cafarella, you were nodding. Would you just continue 
that analysis of Turkey and the Kurds, how they are connected 
in order to work together to confront Iran in Syria?
    Ms. Cafarella. Yes. And I would agree with my colleague. 
And I would simply add that I think the U.S. has undervalued 
what we can accomplish with the SDF because we have not had a 
coherent political strategy on the ground inside of Syria. And 
so it can feel like a monumental task to change the SDF 
governance.
    But we have actually never done that. We simply allowed the 
SDF to go forward and build a formal governance that it wanted 
to, which was responsive to the desires and the political 
ambitions of the senior Kurdish leadership linked with the PKK.
    There was nothing inevitable about that. We were passive 
and we let it happen. If the U.S. takes a more active role, I 
think we actually will find we have common ground with Turkey 
to advance a common secure government framework in the 
northeast. It will require hard work.
    I agree with all of Ms. Khatib's comments about how the 
U.S. has accomplished reform, accountability, et cetera, within 
the SDF. And I would simply offer that I think there is an 
opportunity here because the Kurdish leadership has been 
surprisingly adaptive and have been willing to make difficult 
concessions in order to hold onto their project. I do not think 
the Kurdish leadership will love a lot of the reforms that will 
need to happen, but I think it is entirely possible that they 
will recognize that it's in their interest to do so.
    And I do think that frees up the U.S. and Turkey to 
stabilize this area, prevent Iran from continuing to expand its 
presence there, and then potentially to do more to partner 
against Iran more broadly.
    Thank you.
    Mr. Deutch. OK. How does that work? So, assume we get to 
that point, what happens then, what are we then in a position 
to do with Turkey vis-a-vis Iran?
    Ms. Cafarella. Sure. So, the first thing that happens is 
that area becomes interdicted to Iran, which is not currently 
true. The Iranians are actually able to operate in northeast 
Syria. They are in Raqqa city, and they are in other places.
    So, the first thing is to exclude that presence and, 
therefore, to deny Iran one of its cross-border access points 
into Syria, because they actually use northeast Syria to get 
into and out of the country.
    The second thing I would offer is that it actually opens up 
regional opportunities. And we do not have time, so I won't go 
into detail. But the Turks and the Iranians are actually on 
opposite sides of a major flashpoint in Iraq, in Sinjar, just 
across the border from the Syrian Kurdish area. And that is 
another opportunity for the U.S. to play a diplomatic role in 
stabilizing the situation, bolstering Turkey and countering 
Iran.
    Mr. Deutch. Thank you for that.
    Just as we prepare to close this really helpful, 
informative hearing, I wanted, I also wanted to talk about 
going forward and what things will look like. And we have, I 
think, acknowledged that Russia, and Turkey, Iran and its 
proxies have played, one way or another have been in the 
driver's seat, I think, in this conflict.
    None of them share our general strategic interests in the 
region. Each is using Syria, I think we can agree, to advance 
their own very specific goals. We cannot ignore the parties, if 
we want to resolve the conflict and end the suffering.
    Here is my question. Mr. Alshogre, we will let you wrap up.
    At this point in the conflict, as you look ahead, is there 
a, is there an end in which, in which Russia leaves Syria, in 
which Iran leaves Syria, in which Turkey leaves Syria, 
ultimately in which Assad leaves Syria?
    Mr. Alshogre. As you have probably noticed, I am a very 
optimistic guy, so I always look at the brightest side 
possible.
    Mr. Deutch. Whatever way you can do it.
    Mr. Alshogre. Thank you.
    So, I believe that we actually can find a solution to that. 
Every country, obviously, is looking for their own interests, 
Turkey, Iran, Russia. Nobody cares about the Syrian people; 
right? And that is an obvious thing.
    But there was always, you know, when the Syrian, when the 
Syrian people are supported to lead, they can leave those 
countries outside. They will be leading themselves. Right?
    When we have, when we have the knowledge, the experience, 
that community to lead, we will be leading, and everybody can 
be kicked out if they are not doing good for the Syrian people. 
I know we always have this narrative that the regime actually 
told us about that the conflict in Syria is so complex that it 
is difficult to engage, it is difficult to do good because you 
did not know who is good, who is bad.
    That is not true. We actually know who is good. We know 
actually know who is bad. The Syrian people against the regime 
are the ones that need to be supported. Those people who want 
to demonstrate against the regime, went out to the streets 
asking for freedom, and holding flowers in their hand, are the 
ones to be supported. And most of them are in Idlib right now.
    Some people with argument about Hayat Tahrir al-Sham wants 
jihad, but actually the Syrian people as soon as they got some 
flexibility when they had enough food and water, they would 
actually be fighting the regime and the other extremist groups 
around because they asked for freedom. Right? And the Syrian 
people paid a lot for that: lives, and money, and they invested 
everything they had just to get a new country, a democracy and 
representation.
    And we have the will. The will is very important in this 
conflict. We have the will. We need the support from the world.
    And in 2013 when I was in prison I remember when people 
started talking about other countries being involved to help 
the Syrian people, and we had so much help in prison, and the 
guard himself who was torturing me on a daily basis had so much 
fear because he thought, oh, now the world is going to react, 
is going to help the Syrian people in their revolution against 
the regime, so we may finally be asked in court about our 
crimes.
    So, I encourage everyone, as an individual and as 
Congressmen, to help the Syrian people, to try to care. And, 
you know, telling the stories is so important. I focus on that 
because I know the value of that, why you should come to your 
kids, to your neighbor so everybody is aware. When everybody is 
aware, everybody will care and they would find a solution. 
There are so many there like mine, not only those from Harvard 
or Georgetown to work in business. Adult smart people to work 
in solving conflicts and people earning, earning this money all 
the time.
    Thank you.
    Mr. Deutch. Mr. Alshogre, I know I speak for all of my 
colleagues when I tell you that the pain that you felt in your 
life, the losses experienced in your life, and the way that you 
have taken that to advocate not just, not just to advocate for 
the people of Syria but to do it in, as you point out, this 
optimistic way which recognizes that as long as we continue to 
pay attention, as long as the world is focused there, there is 
a way forward for the Syrian people, I am grateful to you and 
all of the witnesses for joining us today.
    And you have our commitment through this hearing and our 
ongoing focus on this issue that we will not forget the people 
of Syria. We will continue to press ahead with good allies like 
you, and with the insight of talented witnesses like Ms. 
Cafarella and Dr. Khatib.
    We are really grateful. This has been a really wonderful 
and important hearing. I thank all of you.
    I thank the members who have participated in this hearing. 
The level of participation today I think is remarkable. That 
shows, among other things, Mr. Alshogre, our commitment to you 
and the people of Syria.
    Thanks everyone so much. And with that, this hearing is 
adjourned.
    [Whereupon, at 12:16 p.m., the subcommittee was adjourned.]

                                APPENDIX
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                


                   statement for the record connolly
                   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                   
 


                                 <all>
</pre></body></html>
